<html>
<title> - LOWERING THE RATE OF UNEMPLOYMENT FOR THE NATIONAL GUARD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]









        LOWERING THE RATE OF UNEMPLOYMENT FOR THE NATIONAL GUARD

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 2, 2012

                               __________

                           Serial No. 112-41

                               __________

       Printed for the use of the Committee on Veterans' Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE

73-286                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
MARK E. AMODEI, Nevada

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.












                            C O N T E N T S

                               __________

                            February 2, 2012

                                                                   Page
Lowering the Rate of Unemployment for the National Guard.........     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    49
Hon. Bruce L. Braley, Ranking Republican Member..................     3
    Prepared statement of Congressman Braley.....................    50

                               WITNESSES

Mr. Theodore (Ted) L. Daywalt, CEO and President VetJobs.........     6
    Prepared statement of Mr. Daywalt............................    50
Ms. Emily DeRocco, President The Manufacturing Institute.........     4
    Prepared statement of Ms. DeRocco............................    52
MG Terry M. Haston, Adjutant General Tennessee National Guard....    21
    Prepared statement of MG Haston..............................    53
MG Timothy E. Orr, Adjutant General Iowa National Guard..........    27
    Prepared statement of MG Orr.................................    56
BG Margaret Washburn, Assistant Adjutant General, Indiana 
  National Guard.................................................    23
    Prepared statement of BG Washburn............................    54
BG Marianne Watson, Director, Manpower and Personnel, National 
  Guard Bureau...................................................    25
Richard (Dick) A. Rue, State Chair, Iowa Employer Support of 
  Guard and Reserve..............................................    29
    Prepared statement of Mr. Rue................................    58
Mr. Ronald G. Young, Director, Family and Employer Program and 
  Policy, U.S. Department of Defense.............................    31
    Prepared statement of Mr. Young..............................    60
Mr. Ismael ``Junior'' Ortiz, Acting Assistant Secretary, 
  Veterans' Employment and Training Service, U.S. Department of 
  Labor..........................................................    40
    Prepared statement of Mr. Ortiz..............................    62

                       SUBMISSIONS FOR THE RECORD

Reserve Officers Association of the United States and Reserve 
  Enlisted Association, statement................................    67

 
        LOWERING THE RATE OF UNEMPLOYMENT FOR THE NATIONAL GUARD

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2012

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:23 a.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Bilirakis, Johnson, 
Braley, and Sanchez.

         OPENING STATEMENT OF CHAIRMAN MARLIN STUTZMAN

    Mr. Stutzman. Good morning and welcome to the first 
Subcommittee on Economic Opportunity hearing of this session.
    I do apologize for the late start. Several of us Members 
were at the national prayer breakfast this morning and they let 
the President out early and first. And so we came second and by 
the time we got through traffic, it took us some time. So I 
apologize for that.
    But I do want to welcome each of you here and thank you for 
your patience, and welcome the Members as well.
    Shortly after the end of the Vietnam War, the United States 
defense policy changed to transition the National Guard and 
reserves from a strategic reserve to an operational reserve.
    There were several reasons for doing this ranging from the 
perception that a reliance on the reserve components would 
lessen the likelihood of military actions in the future to 
reducing the cost of our defense forces.
    Regardless of those reasons, members of the Guard and 
reserves have borne a significant share of the combat since 9/
11. Clearly there are no longer weekend warriors as there once 
was.
    That also means that employers, especially small 
businesses, have experienced labor challenges not seen since 
World War II and by and large have supported their employees. 
Unfortunately, active-duty call-ups combined with a bad economy 
have created historically high unemployment rates among the 
guard and the reserves.
    Even more unfortunate, you will hear today that some 
employers have used what I believe are less than ethical 
tactics to terminate members of the Guard and reserves.
    As the owner of a small business, I understand the 
pressures on employers that the loss of a critical employee 
creates. But in the end, the question I always ask is who is 
making the greater sacrifice, the employer or the servicemember 
who is literally going in harm's way and that member's family 
who must cope with all the stresses of a deployment.
    You will also hear today from the National Association of 
Manufacturing about the over 600,000 manufacturing jobs going 
unfilled because of skill shortages. With that kind of 
information, we must ask ourselves what are we as a Nation 
doing wrong.
    For example, taxpayers are providing a generous GI Bill 
education and training program and the Department of Education 
offers numerous Title 4 financial assistance programs. In many 
cases, the states are also offering generous education and 
training benefits to members of their states' National Guard as 
well as veterans in general.
    Additionally, the recently passed Vow to Hire Heroes Act 
focuses on renewing the skills of unemployed veterans between 
the ages of 35 and 60 by providing up to a year of Montgomery 
GI Bill benefits. Veterans also have priority access to all 
Department of Labor Workforce Investment Act or WIA programs. 
All of these education and benefits programs offer 
opportunities to acquire skills needed by today's employers.
    So where are we going wrong? Where are the gaps? And I look 
forward to some concrete ideas here today to help us. I would 
note that none of the government witnesses have made any 
suggestions in their written testimony today.
    I am pleased to see that manufacturers are increasing their 
role as you will hear in today's testimony. And I believe that 
increasing initiatives by the employer side of the equation is 
an area that offers significant leverage in developing and 
matching skills with job vacancies.
    In the end, it will likely be up to employers to take 
actions at the local level rather than moving jobs overseas. I 
know that many companies work with community colleges to 
develop skills needed in their company and I suspect that 
expanding that model is an area we need to explore further.
    Before I yield to the Ranking Member, as everyone knows, 
the Transition Assistance Program is an integral part of 
transition. In fact, I believe that every one of today's 
witnesses mentions TAP in their written testimony.
    In preparing for this hearing, the staff asked the 
Administration for a briefing on the redesign of the TAP 
Program. Unfortunately, that briefing has been delayed pending 
a release of a study done for the White House.
    While I commend the Administration for doing the study, 
delaying its release for whatever reason does not help Congress 
or the Administration to get on with revitalizing an important 
program and I urge the White House to release the study as soon 
as possible.
    So, once again, I want to welcome each of you and thank you 
for being here, and at this time will recognize the 
distinguished Ranking Member, Mr. Braley, for his opening 
remarks.
    [The prepared statement of Hon. Stutzman appears on p. 49.]

 OPENING STATEMENT OF HON. BRUCE L. BRALEY, RANKING DEMOCRATIC 
                             MEMBER

    Mr. Braley. Thanks, Mr. Chairman, and thank you for holding 
this important hearing.
    Because of the unique characteristics of the national guard 
and how it impacts the employability of veterans who serve 
their country with honor and distinction, I am very pleased 
that all of our witnesses have joined us here today. I look 
forward to their testimony and want to pay special attention to 
two of our witnesses here today from my State of Iowa.
    The first is Major General Timothy Orr who is the adjutant 
general of the Iowa National Guard and has done a phenomenal 
job during the period of time I have served in Congress.
    So thank you for being here, General Orr.
    And another good friend of mine, Dick Rue, who is the state 
chair of the Iowa Employer Support of Guard and Reserve and has 
had an extraordinary opportunity to see these issues up close 
and personally because of the extensive deployments that our 
guard has experienced in the last decade.
    One of the things that Chairman Stutzman and I did to try 
to get a better understanding of how these issues impact our 
country is to hold two field hearings in October, one in 
Waterloo, Iowa and one in Fort Wayne, Indiana. And we had great 
witnesses at both of these field hearings from employers to 
guard members to active-duty members who had been demobilized 
and returning to the civilian workforce.
    One of the things that was so important that we heard from 
them is that some of those servicemembers looking for work 
actually felt compelled to de-emphasize their service to their 
country because of fears that employers would not want to hire 
them.
    I think that is a sad reality in our country but one that 
deserves our special attention because a lot of that is due to 
fear and misinformation. Our responsibility is to clear up that 
cloud and do everything we can so that employers recognize the 
unique gifts and experience that veterans bring to the 
workplace.
    I know that because right before I was elected to Congress 
I had a legal assistant who was a veteran who served in the 
Marine Corps and all the job skills that she brought to work 
every day were a reflection of some of the training and 
experience she had in her service to our country.
    I am also extremely proud of what the State of Iowa has 
done and its embrace of the Hire Our Heroes Program.
    Shortly after we had our field hearing in Iowa, Mr. 
Chairman, there was a hiring our heroes job fair in Des Moines, 
Iowa about a month later and a lot of the things that we talk 
about here were out in the open giving employers and 
prospective employees the opportunity to bridge that gap and 
identify those job qualities that veterans bring that are so 
critical to employers who want to succeed, dependability, 
reliability, critical thinking skills, problem solving skills.
    And so I am very, very pleased that we are having this. The 
reason why this is so important, we know that over 600,000 
members of the national guard and reserve have been mobilized 
since the attacks on our country on September 11th of 2001. 
Nearly 15,000 members of the Iowa National Guard have served 
their country at home and across the world.
    And just this past summer, 2,800 members of the Iowa 
National Guard returned from deployment to Afghanistan.
    I think a lot of times, we spend a lot of time talking 
about policy and forget about the human faces that are affected 
by those policies.
    For me, the importance of what brings us here today was 
driven home on a very memorable Friday, the 13th when I was 
stranded at the airport in Atlanta, Georgia. My flights were 
getting canceled and I saw a young man wearing his red bull's 
patch from the Iowa national guard watching with disappointment 
as he was trying to get home to his family for a short reprieve 
while serving in Afghanistan.
    I walked up and introduced myself. His name was Nathan 
Rose. He was from Mount Pleasant, Iowa. In his spare time, he 
was trying to get an education at the University of Iowa. When 
we got to talking, I learned he had been at that airport all 
day long trying to get home as his flight was canceled.
    When our last flight option to Iowa disappeared, I told him 
I was flying to Chicago and renting a car and I invited him to 
join me and he did. We had more flights canceled and it ended 
up I dropped him off at his place in North Liberty, Iowa at 
2:30 in the morning and then drove back to Davenport.
    And I wish every Member of Congress could have had a 
similar experience because we spent the whole drive from 
Chicago to Iowa talking about his hopes, his dreams, and his 
future. And if we have people like Nathan Rose out on our front 
lines protecting us, then we have a solemn duty to them to do 
everything we can by not just slapping them on the back and 
telling them good job but actually helping them find a good 
job.
    And with that, I will yield back.
    [The prepared statement of Hon. Braley appears on p. 50.]
    Mr. Stutzman. Thank you, Mr. Braley.
    And at this time, I want to welcome our first panel to the 
table and we are looking forward to your testimony.
    And with us today is Ms. Emily DeRocco and she is 
representing the National Association of Manufacturers and Mr. 
Ted Daywalt, CEO of VetJobs.com.
    And we welcome both of you and your written testimony will 
be made part of the record.
    And we will start with you, Ms. DeRocco, for five minutes. 
You are recognized at this time.

   STATEMENTS OF EMILY DEROCCO, PRESIDENT, THE MANUFACTURING 
   INSTITUTE; THEODORE L. DAYWALT, CEO AND PRESIDENT, VETJOBS

                   STATEMENT OF EMILY DEROCCO

    Ms. DeRocco. Thank you so much, Mr. Chairman and Members of 
the Subcommittee, for the opportunity to join you this morning.
    My name is Emily DeRocco and I am president of the 
Manufacturing Institute which is the nonprofit affiliate of the 
National Association of Manufacturers.
    Our mission is to serve the Nation's manufacturers through 
solutions and services focused on education, workforce 
development, and innovation acceleration.
    You know, over the past few months, manufacturing has 
enjoyed something of a national spotlight, hasn't it? 
Organizations all across Washington from the White House to the 
Congress, thinks tanks and government agencies have been 
discussing the manufacturing industry and what America must do 
to maintain and grow its manufacturing base.
    Well, manufacturing is certainly deserving of this 
recognition because it is the industry that is truly vital to 
our economic security. Manufacturing, for example, is the 
leader in generating wealth from overseas, contributing 57 
percent of the total value of U.S. exports.
    Of course, manufacturing also plays a very vital role in 
our national security, building the equipment and machines and 
armor that equip and protect our servicemen and women around 
the world.
    The American public understands how important manufacturing 
is to our country. Each year, we conduct a public perception 
survey to understand how Americans feel about manufacturing 
jobs and careers.
    Not only do they believe that manufacturing is critical to 
our economic and national security, but when given a choice of 
what industry they would like to create 1,000 new jobs in their 
community, their number one choice is manufacturing.
    But while manufacturing enjoys the support of policymakers 
and the public, our manufacturing companies face a serious 
challenge. They are unable to find workers with the right 
education and skills to contribute to their operations.
    In a survey that we just completed at the end of last year, 
over 80 percent of manufacturers reported a moderate to serious 
skill shortage in skilled production, 80 percent. Nearly 75 
percent of manufacturers say that this shortage has negatively 
impacted their ability to expand operations. That means create 
the jobs that our country so desperately needs.
    Perhaps most alarming, though, is that because much of the 
current workforce is quickly approaching retirement, over two-
thirds of manufacturers expect this situation to get worse in 
the next three to 5 years.
    So this has led to the situation that the chairman 
referenced where 5 percent of all jobs in manufacturing are 
unfilled because companies cannot find the qualified workers. 
In real terms, that translates to 600,000 unfilled jobs.
    So those are some frightening results and make clear the 
threat that a lack of a skilled workforce poses to 
manufacturers.
    At the same time, it is widely accepted that the skills 
obtained in the military from personal effectiveness attributes 
such as integrity and professionalism to more technically 
defined skills such as process design and development are in 
abundance among separating military personnel.
    However, it has traditionally been a real challenge to 
directly align the skills developed during military service to 
the skill requirements in the private sector.
    In addition, we found that the services offered through the 
transition assistance programs vary base by base, command by 
command. And traditionally the military has focused more on 
retention than on helping individuals transition out. Those 
times have changed, but that means we have two problems.
    The Transition Assistance Program has been inconsistent and 
often outdated in its attempt to help transitioning military 
personnel. At the same time, manufacturers want access to those 
highly skilled potential members of our workforce.
    Fortunately we now have a new system that will help with 
both of these challenges. The Manufacturing Institute has 
created with a company called Futures an on-line platform that 
is called the U.S. manufacturing pipeline.
    It will provide the information for separating military to 
learn about careers and jobs available in advanced 
manufacturing. It will locate the schools, the community 
colleges that can fill any educational skills gaps that they 
might have and it will find all available jobs and 
manufacturers in every region of this country. For 
manufacturers it will be the single place to find the skilled 
workers they need to close the skills gap.
    The pipeline platform has been up and running for a very 
short period of time, just a couple of months, and no 
significant marketing campaign has been conducted. Over 35,000 
servicemen and women are now using their site for their career 
and employment exploration. This is entirely through peer to 
peer and viral marketing. But that number is set to increase 
dramatically.
    We understand the Defense Department is preparing a major 
marketing campaign to reach over one million armed forces, 
reserve and national guard personnel and encourage them to sign 
up in the Heroes to Hire Program.
    Our U.S. manufacturing pipeline and the Heroes to Hire 
platform are being integrated and our manufacturers will have 
access to all of those returning reserve and guard. And this is 
fantastic news.
    Assuming we are successful with this group of servicemen, 
we look forward very quickly to working with the transition 
assistance programs for each of the services to reach all 
active-duty personnel who are nearing their transition date 
offering manufacturing jobs as an immediate career opportunity 
for all men and women who have served in uniform.
    I am very excited about the fact that we are very close to 
having the national talent solution for manufacturing in this 
country. Our manufacturers need the skilled workforce to 
compete. Our separating military need good jobs and our country 
needs manufacturing to ensure this is another great American 
century.
    Thank you and I look forward to your questions.
    [The prepared statement of Emily DeRocco appears on p. 52.]
    Mr. Stutzman. Thank you very much.
    Mr. Daywalt, we will recognize you for 5 minutes.

                STATEMENT OF THEODORE L. DAYWALT

    Mr. Daywalt. Good morning, Chairman, Members and staff of 
the Subcommittee.
    Allow me to start by saying I am a very strong proponent of 
an operational national guard and reserve. Having an 
operational national guard and reserve makes the United States 
strong on the international stage, but the use of the national 
guard needs to be done in such a way so as to permit the 
component members to maintain a continuum of civilian 
employment so they can support their families.
    The data I see indicates a rise in the unemployment veteran 
rate is a direct result of a DoD call-up policy implemented in 
January of 2007. The call-up policy which has resulted in 
multiple call-ups for many component members has caused many 
employers to not want to hire members of the national guard 
which has led to the high unemployment rate in young veterans.
    The military and by extension the national guard is a young 
person's occupation. Studies by the Society of Human Resource 
Management and Workforce Management indicate that due to the 
perceived constant activation in the national guard upwards of 
65 percent of employers will not now hire as a new employee an 
active member of the national guard.
    At VetJobs, we find that if a veteran has totally separated 
from the military, retired, or is a wounded warrior, they are 
for the most part finding employment, but that conclusion is 
supported in the BLS charts in my written testimony.
    Now, this is not to say some veterans transitioning off 
active duty are not having difficulties in this tough economy. 
One can always find an exception. But with an overall 
unemployment rate of only 7.7 percent in December, it is 
obvious that most veterans are finding jobs.
    What concerns me greatly is as DoD downsizes the active-
duty forces, the younger members of the national guard will be 
facing another problem, competing with the downsized military 
personnel for civilian jobs.
    Put yourself in the position of an employer. A 
transitioning veteran applies to your company. They have all 
the skill sets you want. They have the training you want and 
they have no further obligation to the military. You have a 
great candidate that will work for your company full time.
    You also have a candidate from the national guard who has 
the same skill sets, but you have been reading in the press 
that the national guard candidate may get called up. The 
national guard candidate will also want time off so they can 
attend military schools which are a part of their continuum of 
military service. And the national guard candidate may be 
subject to short call-ups by the state governor to handle state 
emergencies.
    As a civilian employer, who are you going to hire? 
Obviously the candidate who has no further military 
obligations. Understand that when it comes to a workforce, 
employers are risk averse.
    I predict and I fear that the bottom line for the young 
veteran unemployment which has been hovering in the low to mid 
30 percent range throughout the latter half of 2011 may go as 
high as 50 percent if nothing is done to alleviate this 
situation.
    Now, I would like to make it real clear that the only way 
that we can be absolutely certain about the conclusions I drew 
in my written testimony is to have BLS to ask follow-up 
questions as to whether a military respondent is in the 
national guard and the reserve or whatever. They just dump them 
all into one pot.
    To be honest, if I had been on active duty faced with the 
same challenges our leaders at DoD faced during the war, I 
would have probably made the same decisions, but I would have 
admitted that it is causing issues and I would have worked to 
alleviate some of the problems rather than just ignore them or 
pretend that they do not exist.
    When at war, needing troops, irrespective of the source, 
trumps personal problems. The old adage that the needs of the 
service comes first is well known by all military.
    From a business point of view, one must understand that 
companies have a fiduciary responsibility to their shareholders 
to run an efficient and profitable operation, but they cannot 
do that if they cannot count on the ability of their most vital 
asset, their human capital.
    While for a businessperson this is common sense, those 
making the decisions as to how to utilize the national guard 
seem to have missed what corporate America is saying about 
extended call-ups. They will not support having their employees 
gone for long periods of time.
    I am very glad that we are now at the point where many, 
although not all, key decision makers recognize that there is a 
problem. We cannot go back and correct the past, but we can 
move forward and work together to fix the problems.
    Our military personnel are the best in the world and 
civilian employers recognize that and want their skills, their 
security clearances, their leadership and everything that a 
military candidate brings to the companies. For the most part, 
the military candidate is in demand so long as the employer can 
count on having the employee available.
    While there is no silver bullet for solving the 
unemployment problem in the national guard, a combination of 
policy changes and utilizing existing public sector resources 
will go a long way towards assisting those members in the 
national guard who need employment assistance.
    In my written testimony, I review 11 ideas that may help 
improve the unemployment problem facing the national guard.
    Businesspeople understand that without a strong military, 
their businesses could not exist as a foreign power would want 
to take their business. The United States had to learn this the 
hard way in the 1930s when we disarmed post World War I.
    Those who will not protect what they have are subject to 
losing what they have and as the Latin phrase si vis pacem, 
para bellum so aptly points out to have peace, prepare for war.
    A more balanced way to utilize the national guard needs to 
be found.
    Thank you for your time, Chairman.
    [The prepared statement of Theodore L. Daywalt appears on 
p. 50.]
    Mr. Stutzman. Thank you.
    I found some very interesting points in both of your 
testimony and I will begin the questioning.
    Both of you mentioned the soft skills, integrity, character 
traits that our men and women learn in the military.
    I think that is an easier sell to employers, but if 
employers are looking for hard skills for manufacturing, what 
are they looking for exactly?
    I mean, first of all, we know the type of character that 
our men and women do have once they served in the military, of 
course, but what about some of the hard skills and the type of 
manufacturing that employers might be looking for particularly?
    Ms. DeRocco. Manufacturers, as I am sure all Members of the 
Subcommittee realize, have been evolving over the course of the 
last 10 or 15 years as they have gone lean to be competitive in 
the global marketplace and, quite frankly, infused significant 
technology in their business processes. All of this has been to 
the benefit of the manufacturers and their competitiveness.
    But also at a time when a significant number of low skill 
routinized jobs moved off our shores, there was, in fact, a 12 
percent increase in the number of jobs requiring a more highly 
educated and skilled workforce necessary for the value added 
manufacturing we do in the U.S. today. That meant that there 
was a disconnect in what the educational system and the 
workforce system were delivering to manufacturers.
    We have spent the last 3 years at the institute actually 
creating and deploying a system of nationally portable industry 
recognized credentials that validate the learning standards and 
learning content in high-end production technicians, machining, 
precision machining and metal forming, welding and technology 
skills that are required in every manufacturing job across 14 
sectors in our manufacturing economy.
    These skill sets are now being deployed in curriculum in 
community colleges in 36 states across the country; Indiana and 
Iowa being among the leaders in that regard.
    On the U.S. Manufacturing Pipeline, the returning reserve 
and guard and ultimately active duty military personnel can 
translate the skills they have learned in their MOS to the 
requirements in the civilian manufacturing labor force. 
Whatever gaps they have in those hard technical skills can be 
quickly filled now in community college programs of study, 
whether the soldier, sailor, airman or marine is working to get 
a degree or simply to have the skills and the industry 
credentials that will be their immediate passport to 
employment.
    So, yes, the soft skills are critically important and, 
quite frankly, manufacturers are first up at the table to say 
we want the separating military personnel because they come 
with that work ethic and discipline.
    But we are prepared as a Nation now to fill any gaps in 
their training to assure that the hard technical skills that 
will position them for great jobs in advanced manufacturing, 
whether it is in energy or automotive, aerospace or biopharma, 
are on their portfolio.
    Mr. Stutzman. Okay. Thank you.
    Mr. Daywalt, I would ask you if you could describe in 
greater detail situations that you have heard about where an 
employer lays off a national guardsman under the guise of 
economic hardship before they have orders in hand to deploy as 
a way around USERRA. You have heard of those situations. Could 
you describe that a little bit further?
    Mr. Daywalt. Yes, sir. We more than hear about it. We are 
the recipient. Every time people get laid off, they call 
VetJobs. I will give you an example.
    One, Monday, Tuesday, and Wednesday, we had 20 phone calls 
from South Carolina. All 20 of them had just been released from 
their civilian employers. All 20 just happened to be in the 
national guard. And, oh, by the way, on Friday, they announced 
that the South Carolina brigade was going to be called up.
    Several of the brigades that have come--and understand that 
these people are not coming back with unemployment rates high. 
You know, right now over there, the Minnesota brigade has 28 
percent. Supposedly the Oklahoma brigade has 68 percent 
unemployment. They left with those unemployment rates because 
people figured out how to get around USERRA. And that is not 
right.
    Now, the problem is what do you do about. If you make it a 
law that as soon as someone--it is announced that they are 
called up, nobody will ever hire a member of the national 
guard. We have to find a balance in there some place. You have 
to give the employers more incentives to want to hire the 
person because right now they are seeing them more as a legal 
and financial liability than they are as a productive part of 
their workforce because of the constant call-ups.
    The rules on the employers got changed and they were not 
consulted. And a lot of them are kind of upset. You know, you 
talk to the vice president or president of Conway Trucking. He 
is very vocal about it as well as some others. It happens. It 
is unfortunate, but it does happen.
    Mr. Stutzman. He is very vocal about other companies that 
are----
    Mr. Daywalt. Well, he is very vocal about, you know, his 
people being called up multiple times and what it is costing 
him. He was on a 60 minutes program and talked about how it is 
costing their company nearly a half a million dollars to 
support their national guards people and they are not being 
reimbursed by the government for when that person is taken 
away.
    Mr. Stutzman. Yes.
    Mr. Daywalt. He put it real well in the interview. If you 
are going to take my employees away for 30 percent of the time, 
cover the 30 percent of my medical cost. You know, they are 
businesspeople.
    Mr. Stutzman. Yes.
    Mr. Daywalt. And they want to support, but they cannot go 
broke doing it.
    Mr. Stutzman. Right. Right.
    Mr. Daywalt. And that is why they target the national guard 
more than the reserve and the regulars because the national 
guard is also used locally. What we see as a general rule is 
that if you are totally separated, you have totally left the 
military, you are not having a problem.
    Now, some do. They have bad attitudes. You know, I had a 
chief that was an ammunition handler living in central Florida 
and he was complaining that he could not find in central 
Florida an ammunition handling job. And I told him, hey, you 
are in the wrong state.
    But, you know, for the most part, if they look, there are 
jobs out there for them. And that is borne out by the fact that 
the unemployment rate is only 7.7 percent last month.
    Mr. Stutzman. All right. Thank you.
    Mr. Braley.
    Mr. Braley. Mr. Daywalt, let's get to that example you just 
raised. If the president of this trucking company is concerned 
about the government picking up 30 percent of his medical cost, 
isn't the smarter answer to require health insurers who have no 
insurable risk when somebody is on active-duty employment and 
the government is paying for their health care to rebate that 
percentage of the premium?
    Mr. Daywalt. That is a possibility. I kind of liked what 
Lieutenant General Jack Stultz proposed once, that so long as 
someone is in the national guard or in the reserve, you give 
them and their family complete coverage medically.
    Now, this gives the candidate a great bonus to go into an 
employer and say ``by the way, you know, 35 percent of your 
cost of hiring me is your medical cost, you do not have to pay 
that on me.'' It is paid for because I am in the national 
guard. That would help.
    It is little things like that coupled with other things 
that would help. But you are right.
    Mr. Braley. No. And I think that is a great solution, too. 
But my point is when you hear complaints like this, we cannot 
just accept them at face value without pulling the layer back 
and looking at the real world solutions because you know that 
if that person is on active deployment, there is no longer an 
insurable risk to that employer.
    Mr. Daywalt. That is right, but there is for the family.
    Mr. Braley. So I think we can solve a lot of these 
problems, but we have to put our heads together. We have to 
work across party lines and come up with practical solutions to 
address the concerns that employers raise.
    And, Ms. DeRocco, you know, you are preaching to the choir 
because as chairman of the Populist Caucus which was founded to 
promote economic policies that are going to strengthen and 
expand access to the middle class, one of our principal focuses 
is on developing a robust national manufacturing strategy to 
address a huge problem which is in the past decade, we have 
lost 54,000 manufacturers in this country.
    Just last week, the National Science Board reported that we 
have lost a quarter of our high-tech manufacturers in the last 
decade.
    Mr. Stutzman and I both come from rural America. I went to 
a small high school. I took 4 years of high school shop classes 
and all those job skills you described are things I learned in 
high school and, yet, you look at the impact our education 
policy has on all these issues, most students in small schools 
do not even have access to those programs anymore.
    And you mentioned the community college system. A lot of 
times, that is now an entry point for people to get the skills 
that you have described are desperately needed in manufacturing 
today and, yet, I think we do a really poor job when we talk 
about the importance of education and its relationship to your 
lifetime earning capacity which nobody argues with, but helping 
prepare people for good paying jobs that are blue collar jobs 
many times, but they have much different technical skills 
required than when I graduated from high school right after the 
Vietnam War ended and you could walk out of my high school, 
drive an hour to John Deere in Waterloo and get a job in a 
factory, drive 30 minutes to Maytag and Newton and get a job 
and drive 30 minutes to Amana Refrigeration and get a job 
without any trouble.
    And that is not the world these veterans are returning to. 
So how do we solve their problem?
    Ms. DeRocco. That is true. And I just want to comment that 
we are changing the educational pathways in this country to 
present from high school to community colleges the opportunity 
to gain the academic and applied skills that will position them 
for middle class jobs across our economy. That is our whole 
intention and that is going to be critical to keeping and 
growing manufacturing in this country.
    And I very much appreciate the practical solution you have 
suggested in response to Ted's anecdote. I have to say in my 
prior position, spending 7 years at the U.S. Department of 
Labor as the assistant secretary of employment and training 
responsible for that workforce investment system, dealing with 
employers across all sectors in our economy, and now after 4 
years of representing manufacturers who I believe are among the 
life blood of this country and among the most patriotic 
individuals I have ever had the pleasure and honor of working 
for, there is a total disconnect between the way we transition 
our military men and women, whether they are reserve, guard or 
active duty, out of the military and into civilian jobs.
    This is not rocket science and it makes no sense that we 
have not been able to make direct connections from the 
extraordinary training in the military, the well-defined MOSs, 
to a translation to a civilian credential, whether it is in 
health care, information technology, manufacturing, or other 
sectors, so that they have immediate employment opportunities.
    Employers want these people first. I had the former 
president of ABC representing construction management firms 
across the country call me not 6 months ago and he said he 
voluntarily identified with major construction contractors 
across America over 1,000 jobs ready to be filled because his 
personal mission was to make sure returning veterans had jobs.
    He had been able through the systems we have in place, the 
workforce investment system, the veterans' employment and 
training system, the Transition Assistance Program, he had been 
able to find two veterans looking for a job. That is tragic 
and, quite frankly, ridiculous.
    So industry, in the case of manufacturing, is taking it 
upon itself to build the platform that can directly connect 
these military men and women top jobs through their e-resume. 
They are all online. They all have laptops.
    My daughter just returned from Iraq. She had a laptop in 
the sands of Iraq. They can put their e-resume online and they 
can position themselves for where the jobs are, what their MOS 
prepares them for, what civilian credential they could get 
immediately with an assessment, and where they could get 
employed.
    We have to make those connections, and employers are 
stepping up to the plate to do it. But the military has to, 
too. The rest of the Federal agencies in support of the 
military have to and, quite frankly, our surround services like 
the insurance companies do as well.
    Mr. Braley. I yield back, Mr. Chairman.
    Mr. Stutzman. Mr. Johnson, you are recognized.
    Mr. Johnson. Ms. DeRocco, you said that TAP is inconsistent 
and often outdated. What in your opinion needs to change to 
make TAP effective and where can your members help?
    Ms. DeRocco. I think it has to be directly on point to 
industry, jobs, and careers of today, the 21st century. We have 
to provide career awareness and recruitment information to 
military men and women regardless of where they are and we have 
the capability to do that online.
    Industry employment opportunities have to be directly 
aligned to the MOS and training that these young men and women 
are receiving in the military so that there is an easy, 
immediate translation of their MOS prior to their separation to 
the jobs available.
    They need to be able to search our jobs by zip code to the 
place which they want to muster out or to their home territory. 
Where do they want to live? What does the job picture look like 
there? What skills do I have now that position me for immediate 
employment?
    And if I need other skills, we are going to connect them 
directly to the community college that is going to provide that 
for them. So they need the pathways from military to education 
to careers and it has to be done on an accelerated basis.
    Mr. Johnson. Sure. Another question just popped in my mind. 
Do you find merit in the idea that, you know, there are many, 
many jobs in the manufacturing sector that require specialized 
certifications?
    A lot of our veterans come out of the military with 
training that far exceeds most certification programs, yet when 
they enter the workforce, because they do not have a piece of 
paper, they have to go back through that burdensome, onerous 
certification process from scratch.
    Don't you think we need to build a bridge on those 
certification processes so our veterans who are highly skilled 
and trained are ready to go to work the day they show up?
    Ms. DeRocco. Absolutely. And that is exactly what we are 
doing in manufacturing. Our credentials or certifications--for 
those who are not intimately familiar with them--are built on 
industry's learning standards and content and then you take an 
assessment----
    Mr. Johnson. Sure.
    Ms. Derocco [continuing]. A proficiency assessment. It is 
most like a two-part assessment, the theory and the 
performance.
    Mr. Johnson. Yeah.
    Ms. DeRocco. We should now absolutely provide the 
assessment online for them to use their military experience and 
knowledge to see if they assess to the credential wherever they 
are and receive it before they ever set foot back home.
    Mr. Johnson. Are you feeding that information to the 
Department of Defense?
    You know, I am retired Air Force and I cannot speak for 
them, but having served in that culture, I was an instructor in 
what used to be air training command, now air education and 
training command, there was an impetus, there was a 
certification awareness as we went through our training for 
very specialized skills.
    Are you engaged, is your industry engaged with the DoD? Do 
you get those certifications at the time the training is 
accomplished?
    Ms. DeRocco. Absolutely. We have had dozens of meetings 
with the individual services, with DoD, and with the White 
House, quite frankly. Part of our problem seems to be that no 
one just makes the decision to do it. So I might have connected 
this morning----
    Mr. Johnson. That is too common sensical and you know there 
is not an abundance of that here in Washington.
    Ms. DeRocco. Yeah. Well, it is a difficult maze for 
industry too----
    Mr. Johnson. Well, we would like to help with that.
    Ms. DeRocco. We would love your help. Thank you.
    Mr. Johnson. So to the extent that we can, we would like to 
help.
    You know, having come through, I have worked in 
manufacturing in the private sector, and I know that training 
is a large part of their gearing up process when they bring on 
new employees.
    What is the temperature within the industry as far as 
helping to fund some of this training for veterans? Do you 
think employers are willing to do that in those cases where 
maybe a certification process does not exist or it is not 
required but specialized training still is? Do you think 
employers are willing to do that?
    Ms. DeRocco. Absolutely. Most of our employers have tuition 
assistance programs and partnerships particularly with their 
community colleges. And I think those arrangements can quite 
readily be made.
    Just as an example, we rolled out in Minneapolis this fall 
an accelerated 16-week college program followed by a required 
paid internship program for 8 weeks that would lead to instant 
employment. And we wondered, are the employers going to line up 
with the paid internship----
    Mr. Johnson. Sure.
    Mr. Derocco [continuing]. If they are able to get these 
skilled workers. At all three campuses of both colleges, they 
are over-enrolled in students and the employers are lined up 
with the paid internships. So I think they are ready to help.
    Mr. Johnson. I was going to ask you a question about 
offering TAP classes to all veterans, you know, on a voluntary 
basis. Having come from the military myself, you know, we 
learned to follow instructions on day one. But when you make 
anything voluntary, you are basically asking them not to show 
up.
    It was never voluntary to run the mile and a half. It was 
never voluntary to do the required number of situps and 
pushups. For their own benefit and the benefits of their 
families, I do not think we should make it voluntary for our 
active-duty servicemembers to go to the TAP Program because I 
think it is such tremendous benefit to them coming out.
    I might have other questions. Thanks for giving me 
additional time, Mr. Chairman.
    Mr. Stutzman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I am going to start with Mr. Daywalt. You offered many 
suggestions in your written testimony to improve the national 
guard unemployment rate. And I want to sort of focus in on this 
large group of national guardsmen who are a group in need of 
trying to find ways to help them overcome some of these hurdles 
to employment.
    I want to focus on a subset of that group which is actually 
female veterans because I think they may experience some unique 
possibilities of overcoming additional obstacles other than the 
fact that they are simply national guard, serving in the 
National Guard.
    And I want to talk specifically about the fact that this 
age group tends to be a group that may include mothers or 
future mothers. And sometimes that in and of itself is a 
barrier to employment for women.
    Do you think it is reasonable to suggest that a young 
female National Guard member may face even greater obstacles 
when attempting to find a job because of those two factors 
combined?
    Mr. Daywalt. On a case-by-case basis, yes, they probably 
have more things that they have to face. To what Ms. DeRocco 
was saying about a platform, a system that matches people up, 
that already exists out there. You have over 20 military 
employment sites, job boards, VetJobs. You have military hire 
and you have corporate gray and a whole bunch of others that 
already do that. It is in the civilian sector.
    And there are job boards out there just for women. And the 
civilian sector, the private sector identifies the need pretty 
fast and they can move quick. And many of us identified the 
fact that the people are not getting help when they needed it 
when they came out. Many have said that TAP is broken and I 
will let others make that decision. But that is VetJobs is 
there.
    And to the women, especially if it is a single mother, you 
know, maybe it is because I am an old fart, but I just cannot 
imagine being a single mother, being in the guard, trying to 
get a job, and raising a child or two or three children all at 
the same time. I mean, my hat goes off to them. But----
    Ms. Sanchez. Well, I have to tell you I am the mother of a 
2\1/2\ year old and I travel bi-coastally with my son to do 
this job which is more than a, you know, 40 hour a week job. 
And I have a respect for single mothers who do that. I think 
that they are superwomen----
    Mr. Daywalt. Oh, yes, they are.
    Ms. Sanchez [continuing]. In every sense of the word. But 
what I am trying to focus in on, and this is something that 
kind of gets lost in the shuffle, you talked about the higher 
unemployment rate for National Guard members than the general 
unemployment rate in many of these states.
    And I am wondering if there has been an effort to try to 
extrapolate what that rate might be based on gender because I 
suspect, and this is just a suspicion on my part, that for 
young female National Guard members, that unemployment rate is 
probably even higher than it is for the general guard member 
population.
    Mr. Daywalt. About 2 weeks ago, I remember seeing a press 
article that addressed that and it did say, and I am sure they 
got the information from BLS, that female veterans have a 
higher unemployment than male veterans.
    Ms. Sanchez. Right. And I suspect because they face these 
additional obstacles.
    And the reason why I mention that is in my home State of 
California, there was a bill that passed in 2004 which would 
essentially create a voucher system by which child care 
vouchers would be available to veterans seeking employment and 
it would be a way to try to help ease the cost of child care 
and, you know, provide that.
    And we are, you know, budgetly challenged in California, so 
the funding has not necessarily been there. But, thinking of 
these practical solutions, and it seems to me that that type of 
concept of helping with some of those barriers to employment 
such as reliable and affordable child care, might be something 
that we could do to reduce that.
    Mr. Daywalt. When I get on the phone and counsel with a 
single mother, I generally try to point them to more forward 
thinking companies that are labeled as an employer of choice. 
And that is something that the Herman Group puts out.
    One thing that is in there is--and it is a fact that so 
many companies now do offer child care on the premises in order 
to bring qualified employees. And that is a smart employer that 
does that and we try to steer them towards some of the 
companies that do stuff like that.
    The trouble is that it is not always apparent who offers 
that and who does not. And that is where VetJobs and some of 
the other military sites become the intermediary because we 
know these companies.
    And someone comes to me and I would say, you know, you 
would really do well at UPS. You know, they need secretaries or 
they need this or they need a manager. And, by the way, they 
have child care on the premises. A lot of the hospitals, a lot 
of health care have gone to that. It is the only way they can 
draw nurses and the health care people that they need. They 
start offering child care and that is an ideal spot. But they 
do not always know that that is out there.
    Ms. Sanchez. Right.
    Mr. Daywalt. So that is where we come in and try to----
    Ms. Sanchez. And my suspicion would be that employers who 
would offer that generally are of a certain size and many small 
businesses are excluded from that because it is very----
    Mr. Daywalt. Very difficult for companies under 150, oh, 
yeah, very difficult.
    Ms. Sanchez [continuing]. Expensive. If the chairman will 
indulge me for just one last quick question.
    Ms. DeRocco, you mentioned continuing efforts to partner 
with community colleges to help get the skills that veterans 
need in order to go into the skilled manufacturing sector.
    The district that I represent is very working class, urban. 
And one of the things is they would like to get those skills, 
but the cost is a barrier for them. And so I am intrigued when 
you talked about the paid internships and I am sort of 
envisioning something where employers who have a need for 
skilled employees who have the soft skills of reliability and 
folks that will do what they are told.
    Is it crazy to think that maybe there might be some kind of 
way to structure something that is almost like an 
apprenticeship system where employers would sort of finance the 
acquiring of those skills and they would be working in the 
meantime while they are trying to complete those programs?
    Ms. DeRocco. Very insightful. A couple of points. One, we 
actually are beginning with Laney College in the Bay area of 
California with the integration of these educational pathways 
that are competency-based pathways to jobs in manufacturing 
because of the high concentration of small machining companies 
in that area which will offer extraordinary jobs.
    We spend about $18 billion a year in this country on 
workforce investment, workforce development, another $800 
billion in public education. What we are doing is actually just 
directing a very small percentage of those funds to building 
the educational pathways in high school and community colleges 
that result in credentials that have value in the workplace and 
labor market.
    So to date, there has never been a question about money 
available to have the educational pathways in place. All 
Federal aid programs cover any cost associated with the 
individual credentials.
    And in every instance, employers are driving the 
educational reform by being full partners as faculty, 
curriculum development advisors, paid internships, mentors, and 
even the equipment and requirements for the educational pathway 
to be successful.
    So, yes, we are highly encouraging much stronger business-
education partnerships. Actually, it is the only way we are 
going to change education in this country.
    Ms. Sanchez. Great. Thank you.
    And I thank the chairman.
    Mr. Stutzman. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Thanks for calling this very important hearing. Thanks for 
making this issue of hiring veterans a top priority of this 
committee. Appreciate it very much.
    Ms. DeRocco, I have a couple questions. What type of 
relationship do nonmembers typically have with the local 
workforce investment boards and DVOP and LVERs in particular 
whose entire job is to match local veterans with openings in 
your member companies?
    Ms. DeRocco. I am actually really sorry to say having been 
inside government and responsible for the WIA system that most 
employers have not seen the value proposition of engaging with 
the workforce investment system. It has not been focused on 
skills and jobs on demand. It has not engaged active employers 
in the way I think it was envisioned in the original 
legislation.
    It is now up for reauthorization. Perhaps that can be 
fixed. And as a result, we could fix their service delivery 
system which is those one-stop career centers around the 
country, where the DVOPs and LVERs actually sit. The system is 
just not something that most employers engage in.
    We have a disconnect between the employing part of our 
market and the workforce development part of the market in 
communities all across this country.
    Mr. Bilirakis. We have to work on fixing that. I look 
forward to working with you on that.
    Have you had any conversations with Veterans' Employment 
and Training Services about having them advertise the U.S. 
manufacturing pipeline?
    Ms. DeRocco. Not to date. We will, however. In Minneapolis 
which is one of our test sites for the Accelerated Fast Track 
Program to credentials, we have engaged the workforce system 
there as a strong partner. We wanted to see if that worked.
    We also tested U.S. Manufacturing Pipeline in credentialing 
with the national career readiness certificate at Fort Bragg. 
And the community college, the workforce system, and the Fort 
Bragg command all were helpful.
    So this is our process, unfortunately, of taking it on 
local area by local area, command by command to get the strong 
partnership in place. If we could get some momentum behind that 
nationally, it would go much more quickly.
    And I do know the Federal agencies responsible, but I 
believe we are getting faster action working on the ground 
right now.
    Mr. Bilirakis. A third question and this will be my final 
question until the next round, but have you been participating 
in these jobs fairs? I am having one partnering with the U.S. 
Chamber of Commerce this month in my district.
    Ms. DeRocco. We are. We actually alert our manufacturers 
about every job fair that we are made aware of so that they 
have the opportunity to participate. We had a lot at the recent 
Iowa job fair, I know, because I got reports back of hires.
    Mr. Bilirakis. Have they been successful with the 
manufacturers hiring?
    Ms. DeRocco. Yes. Job fairs like job boards, there are lots 
and lots and lots of them. So I think it is an individual 
decision on the part of the manufacturer, the extent to which 
that is how they are going to recruit and find personnel.
    We actually think we found a faster track that will change 
their recruitment and hiring strategies because they can do it 
directly aligned to their HR database and have a single source 
to go to to find our returning reserve, guard, and active duty.
    Mr. Bilirakis. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Stutzman. Okay. Thank you.
    I just have a couple of quick follow-up questions. Ms. 
DeRocco, how many members do you have in your association and 
do any of them offer any TAP programs of any sort on their own?
    Ms. DeRocco. There are about 12,000 members of the National 
Association of Manufacturers. The institute serves both NAM 
members and all manufacturers in the U.S. There are 286,000 
manufacturing enterprises representing 12 million employees.
    And, yes, many members like GE, I would cite, have really 
extraordinary internal programs to recruit and train former 
military. GE focuses particularly in the officer corps, 
recruiting officers for a lifetime career if they so choose in 
the many divisions of the global giant GE.
    But it is, as I think Congresswoman Sanchez mentioned, this 
is easier for large companies to have that kind of internal HR 
strategies that are directly filling gaps in employment and 
training for the military. For the large number of our members 
and for manufacturers, these are small to mid cap companies. 
And we felt strongly that we needed a national HR strategy, 
like the U.S. Manufacturing Pipeline and the most critical part 
of that to get on the ground immediately was targeted 
recruitment of our military.
    Mr. Stutzman. And could you describe the 600,000 jobs 
roughly, can you describe what kind of jobs are those and what 
type of training, education levels would be needed for those 
jobs? I know it is a broad question.
    Ms. DeRocco. The vast majority of those jobs are in what we 
call skilled production. And the high demand jobs in skilled 
production are primarily in precision machining, metal forming, 
high-end welding or materials joining as it is now called, and 
integrated systems technology that drives production systems. 
So they are high skilled and using high-end technology in large 
measure.
    Mr. Stutzman. So most of those jobs would need more than 
just a high school education?
    Ms. DeRocco. Absolutely. Over three-quarters of jobs in 
manufacturing and, quite frankly, according to BLS, this 
translates across the economy to 75 percent of the jobs in the 
21st century economy require some post secondary education, not 
necessarily a 4-year degree, which is why we have channeled our 
efforts to the 2-year community college programs.
    Mr. Stutzman. Okay. Thank you.
    Do any other Members have any other questions?
    Mr. Braley. Well, Mr. Chairman, I just want to put a human 
face on the superwomen that my friend from California was 
talking about.
    I did a higher education forum at the University of 
Northern Iowa and one of our witnesses was this young woman who 
was a member of the Iowa National Guard. She is attending 
Hawkeye Community College to get her 2-year AA degree. She 
plans to go on to the University of Iowa to get her medical 
degree and become a pediatrician.
    And these are the faces of the people we are talking about 
today.
    Ms. DeRocco. So if we could convince her to go into 
Hawkeye's manufacturing programs, she could then get her 
engineering degree because these are pathways to engineering 
programs. But congratulations. We love those faces.
    Mr. Stutzman. Mr. Johnson.
    Mr. Johnson. I do have one follow-on question. You know, I 
made the transition from active duty then as a small business 
owner myself and then into corporate America as an executive. 
And a global manufacturing firm took a chance on me and they 
confessed later that they did take a chance because there was 
some trepidation by the executive leadership team.
    Military, I mean, we are talking here about skills, 
manufacturing skills, but there are, you know, military 
officers that come off of active duty. They need a place to go 
to work also.
    Ms. DeRocco. Absolutely.
    Mr. Johnson. And I think there is a perception in corporate 
America that retired military officers step out with a 
discipline, a mission focus, and it can be intimidating to some 
people the ability to produce results, to make decisions, to 
want to see things get accomplished.
    How do we encourage the manufacturing community to embrace 
that kind of ``let's get the ball rolling'' and ``let's do 
something and not talk about something forever?'' You know what 
I am saying? Am I clear?
    Ms. DeRocco. Yes. In several regards, let me say I think we 
are the only industry sector which has actually been doing it. 
We have boots on the ground in 36 States building educational 
programs for these jobs and we are answering that call.
    Secondly, I am just so surprised to hear what you said 
because the attributes you articulated are exactly what I hear 
manufacturing executives say are the number one attributes of 
the employees they seek and that, in this global economy, it is 
exactly those capabilities that are going to be their 
comparative and competitive advantage to continue to win.
    So manufacturers have been under siege as globalization has 
had its impacts broadly. They have leaned their business. They 
have infused technology. They have met every challenge. And 
today their challenge is the leadership with exactly those 
attributes. I think it is a match made in heaven.
    Mr. Johnson. Yes. Well, I do, too. And let me be clear. I 
did not mean the CEOs and the boards. But if you are sitting on 
the executive team----
    Ms. DeRocco. Uh-huh.
    Mr. Johnson [continuing]. And you hire a new executive team 
member and all of a sudden, you see him screaming by you 
because he is getting things done, that can create a friction 
within a corporation that takes a while to settle down because 
our retired veterans, they are about results and they are 
committed. They are dedicated. They are there on time. They 
stay late. They have the people skills and the leadership 
skills.
    There is no training ground in the world----
    Ms. DeRocco. That is better.
    Mr. Johnson [continuing]. Like our military for producing 
those kinds of skill sets. And some people are intimidated by 
that.
    Ms. DeRocco. Let's bring it on. I think that is our 
competitive advantage.
    Mr. Johnson. I am with you.
    Mr. Stutzman. Any further questions?
    [No response.]
    Mr. Stutzman. Mr. Daywalt and Ms. DeRocco, thank you very 
much for your testimony, for what you do as well, and I look 
forward to working with you in the future. So you are 
dismissed.
    And at this time, I want to welcome to the table our second 
panel. And this panel is composed of Adjutant General of the 
Tennessee National Guard, Major General Terry Haston; the 
Adjutant General of the Iowa National Guard, Major General 
Timothy Orr; the Assistant Adjutant General of the Indiana 
National Guard, Brigadier General Margaret Washburn; and also 
we have Brigadier General Marianne Watson from the National 
Guard Bureau; Mr. Dick Rue from the Iowa Committee of the 
Employer Support of Guard and Reserve; and, finally, Mr. Ronald 
Young, the director of the Family and Employer Program and 
Policy for the U.S. Department of Defense.
    So we have a large panel here. I want to thank each of you 
for being here and especially to those from out of State, 
Tennessee, Indiana especially, and also Iowa. We want to 
welcome each of you and especially as you are on the front line 
of this particular issue. And I look forward to your testimony.
    And we will recognize you for five minutes. So let's begin 
with General Haston. Haston or Haston?
    General Haston.
    Mr. Stutzman. Haston. All right. I apologize.
    General Haston. That is okay, sir.

  STATEMENTS OF TERRY M. HASTON, ADJUTANT GENERAL, TENNESSEE 
NATIONAL GUARD; TIMOTHY E. ORR, ADJUTANT GENERAL, IOWA NATIONAL 
 GUARD; MARGARET WASHBURN, ASSISTANT ADJUTANT GENERAL, INDIANA 
    NATIONAL GUARD; MARIANNE WATSON, DIRECTOR, MANPOWER AND 
PERSONNEL, NATIONAL GUARD BUREAU; RICHARD A. RUE, STATE CHAIR, 
 IOWA EMPLOYER SUPPORT OF GUARD AND RESERVE; RONALD G. YOUNG, 
    DIRECTOR, FAMILY AND EMPLOYER PROGRAM AND POLICY, U.S. 
                     DEPARTMENT OF DEFENSE

                  STATEMENT OF TERRY M. HASTON

    General Haston. Chairman Stutzman, Ranking Member Braley, 
and distinguished Members of the Subcommittee, I am honored to 
appear before you today on behalf of the more than 14,000 men 
and women serving in the Tennessee Army and Air National Guard.
    And I would like to begin by expressing my sincere 
appreciation for the outstanding support of this Subcommittee.
    Since the tragic attacks on our homeland on September the 
11th, 2001, more than 27,000 brave Tennessee national guard 
soldiers and airmen have deployed both at home and abroad 
protecting the freedoms that we all enjoy.
    These men and women of the volunteer state have answered 
the call of this Nation without hesitation or reservation. Most 
return home after defending this great Nation and resume their 
civilian lifestyle left, renewing relationships with families 
and friends, and returning to their civilian workplace, but all 
too often they may return to an uncertain future.
    This issue of soldiers and airmen facing unemployment in 
the civilian sector is paramount in our concerns for the well-
being of our troops.
    In Tennessee, about 20 to 25 percent of our national guard 
strength is either unemployed or underemployed with about 3.5 
percent of those identified as full-time students. This 
compares to an 8.7 percent unemployment rate for Tennessee as a 
whole.
    We owe these volunteers our very best efforts in helping 
them gain employment. But to effectively combat this problem, 
we have to know the enemy. We have to look beyond the reported 
numbers that may, in fact, demonstrate a false positive.
    To understand the magnitude of the problem, we have to 
determine an accurate number of guard members who are actively 
seeking employment. We also have to determine if their 
deployment caused them to be unemployed or were they unemployed 
before deploying.
    In Tennessee, we continually encourage the unit commanders 
and leadership to identify these individuals to assist in how 
we can help them. Simply, we must know what the true objectives 
are before we can attack it.
    In Tennessee, we are striving to identify those true 
objectives. In conjunction with our Employer Support of the 
Guard and Reserve, we are conducting employment assistance 
workshops about once each month. The three-day event provides 
one-on-one career counseling addressing issues such as writing 
an effective resume, guidance, and preparing for and how to 
conduct an interview.
    On the final day, employers such as FedEx, Verizon 
Wireless, Hospital Corporations of America, Dollar General, 
AT&T, and a multitude of other employers are on hand to 
interview the prospective employees.
    Hopefully through this process the employers will find and 
hire quality guard members that brings a great deal to the 
table offering that employer a motivated, disciplined, drug-
free asset with the training and potential for leadership in 
their company.
    We have sponsored or supported 18 job fairs in the past 17 
months with 415 participants. Of those participants, 111 have 
responded to inquiries and 37 percent of the respondents have 
found employment.
    This program along with your yellow ribbon initiatives, 
unemployment counseling, and soldier out-processing upon their 
return, and our outstanding relationships with the Tennessee 
Department of Labor are all positive steps in reducing the 
number of unemployed guard members in Tennessee.
    I have often heard it said that our soldiers and airmen of 
our national guard are the best America has to offer. These men 
and women are willing to put their lives on hold without 
hesitation, with reservation, walk away from family, community, 
and their civilian occupation to defend and protect this great 
Nation. We owe them no less than our very best.
    Sir, thank you for allowing me to address the Subcommittee 
today and I look forward to your questions.
    [The prepared statement of Terry M. Haston appears on p. 
53.]
    Mr. Stutzman. Thank you.
    General Washburn.

                 STATEMENT OF MARGARET WASHBURN

    General Washburn. Chairman Stutzman and honorable Members 
of the Subcommittee, on behalf of Major General R. Martin 
Umbarger, the adjutant general of Indiana, I am honored to 
appear before you today to represent our 14,314 Army and Air 
National Guard servicemembers.
    I would like to also begin by expressing my sincere 
appreciation to the Subcommittee for its tremendous support 
over the past several years and for your concern with the well-
being of the outstanding men and women serving in our Nation's 
national guard.
    Indiana faces the challenge of unemployment and 
underemployment for our guardsmen. Indiana has deployed over 
17,693 servicemembers since 9/11.
    Based on the Department of Defense civilian employment 
information database, it is estimated that nationally 20 
percent of returning national guard soldiers and airmen are 
unemployed.
    The current rate of unemployed Indiana national guard 
members is roughly 23 percent which is over twice the current 
state rate of 9 percent unemployment. Thus, we estimate that 
roughly 3,300 Indiana guardsmen and women are unemployed.
    As we conduct more detailed analysis, we find these numbers 
slightly skewed by the number of servicemembers just completing 
high school or currently enrolled in higher education.
    Further, in Indiana, we also choose to track and assist 
unemployed spouses. When identified, believing that getting at 
least one of the family members employed significantly improves 
overall servicemember household well-being and readiness.
    In 2009, Major General Umbarger created the Indiana 
National Guard Employment Coordination Program. The objectives 
of this program are to identify, track, and reduce the 
unemployment within the Indiana national guard.
    These objectives are accomplished by working directly with 
each unemployed servicemember to increase their marketability, 
collaborate with Indiana employers for the hiring of our 
members, and quality assurance checks with these businesses on 
the servicemembers they have already hired.
    Direct hands-on assistance includes resume writing, active 
job search training, interview skills, and job preparedness 
training. Developing a servicemember's marketability includes 
education, skills training, vocational rehabilitation, and even 
near-term financial assistance for such things as reliable 
transportation to their new employment.
    Our Employment Coordination Program works individually with 
each identified servicemember throughout all phases of the 
deployment cycle. We actually define a servicemember's needs 
while the servicemember is still in theater and are present at 
the demobilization station when the servicemember returns so 
that we may initiate actions required to improve their 
marketability or educational needs.
    We have now placed over 1,000 servicemembers and spouses in 
jobs. Some of these jobs are active-duty operational support, 
temporary positions, and a combination of education with part-
time employment.
    The Employment Coordination Program has also assisted in 
completion of 2,443 resumes, has 484 job openings currently 
posted, and submitted 2,050 job applications.
    Another initiative is the Indiana national guard business 
partnership. We currently have over 125 businesses involved in 
this partnership which includes a reciprocal support process 
designed to provide both the employer and the employee with 
resources and assets to complete successful hiring and 
sustained job performance. We have placed 172 servicemembers in 
jobs with these 125 businesses.
    Another initiative is Major General Umbarger's executive 
business meetings. These monthly meetings give key business and 
community leaders a greater understanding of the national guard 
experience and what our servicemembers have to offer to the 
state workforce. These leaders are encouraged to consider a 
veteran for any open position, especially those returning from 
deployment and those negatively impacted due to economic 
challenges in their local communities.
    Our adjutant general has created a state level staff 
position, the J9 civil military affairs directorate. This 
directorate brings all support programs including family 
programs, yellow ribbon reintegration, Employer Support of the 
Guard and Reserve, transition assistance advisors, and the 
Employment Coordination Program under one supervisor.
    It affords these programs a level of unit of effort that 
did not exist when they were working independently. The J9 
directorate also serves as the community outreach platform 
creating new relationships with community resources and 
developing increased servicemember and family access to these 
resources.
    The Indiana national guard also participates in all 
Employer Support of the Guard and Reserve activities, the Job 
Connection Education Program, job fairs, town hall meetings, 
network and social media programs.
    Funding and manning are needed to allow these programs to 
maintain their success. We believe long-term job placement is 
potentially greater with our holistic approach to the 
employment process.
    Thus, there is a greater value to the national guard 
workforce by including education, skills training, and improved 
marketability over just submitting a resume.
    Our national guardsmen have proven themselves to be ready, 
reliable, and accessible here at home and worldwide. Many of 
them have answered the call to duty and spent multiple 
deployments away from their families and their employers.
    The Indiana national guard is working hard to ensure these 
heroes return to a lifestyle and family wellness deserving of 
the sacrifices they have made. The strength of the Indiana 
national guard rests in it citizen soldiers and airmen. The 
strength of these citizen soldiers and airmen rests in their 
employment and productivity to their communities.
    Indiana employers are military and veteran friendly and 
many desire to hire our talented, experienced, and reliable 
servicemembers. We need to help make that connection possible.
    Once again, I thank you for recognizing this issue and 
holding this hearing. I look forward to respond to your 
questions.
    [The prepared statement of Margaret Washburn appears on p. 
54.]
    Mr. Stutzman. Thank you very much.
    General Watson.

                  STATEMENT OF MARIANNE WATSON

    General Watson. Chairman Stutzman, Ranking Member Braley, 
distinguished Members of the Subcommittee, I am honored to 
appear before you today on behalf of the Chief National Guard 
Bureau, General Craig McKinley to represent our 465,000 Army 
and Air National Guard servicemembers.
    I would like to begin by expressing my sincere appreciation 
to the Subcommittee for its tremendous support and your concern 
with the well-being of our outstanding men and women.
    Our National Guardsmen have proven themselves to be ready, 
reliable, and accessible here at home and overseas. Many of 
them have had multiple deployments away from families and 
employers.
    The National Guard Bureau is working hard to offer programs 
and initiatives that will improve our unemployment rates, but 
there is more work to be done.
    We must address lowering the rate of unemployment with 
National Guard members. The rate of employed veterans remains 
much higher than the national nonveteran average. We estimate 
approximately 20 percent of returning National Guard Soldiers 
and Airmen are unemployed.
    Unfortunately, we are unable to accurately identify 
guardsmen who are underemployed, unemployed, or are 
transitioning requiring employment and/or educational 
assistance. Additional fidelity is needed to validate the 
employment status of our servicemembers.
    As a pilot, the Army National Guard directorate has placed 
a representative at Fort Hood, Fort Bliss, and Camp Shelby to 
administer a handwritten employment and outreach questionnaire. 
The questionnaire requests employment status, education, and 
experience information. Soldiers are provided information on 
education, training, and employment options based on their 
responses. This is a great initiative, but the process needs to 
be automated in order to provide all stakeholders accurate and 
accessible information.
    Additionally, as early as 2004, the National Guard Bureau 
funded a unique resource at each Joint Force Headquarters 
titled program support specialist. This individual serves as 
the adjutant general's subject matter expert regarding local 
issues with employers of air and army national guard members.
    While initially focused on specific employer support issues 
and complaint resolution, the duties of the program support 
specialist expanded to include employment facilitation.
    In addition to coordinating employment opportunity events, 
program support specialists refer unemployed guardsmen by 
connecting them with local resources, the Veterans Affairs, and 
the Department of Labor.
    Last year, program support specialists participated in over 
1,000 yellow ribbon reintegration events nationwide supporting 
units returning from deployment by identifying employment 
opportunities and providing other requested assistance.
    The program support specialists also work closely with our 
transition assistance advisors in the state joint force 
headquarters to ensure our Guard members are registered with 
the Veterans Affairs and can access their VA benefits to 
include vocational and job training with the Department of 
Labor. Both of these programs are essential to developing and 
establishing a community-based program network.
    With multiple brigade deployments over the past several 
years, the National Guard implemented a pilot program in Texas 
called the Job Connection Education Program which specializes 
in one-on-one education, training, job search services that 
enhance National Guard members' abilities to obtain and retain 
employment.
    The strength of the JCEP is individual case management. 
Servicemembers and spouses complete an on-line registration 
process and participate in a one-on-one orientation and 
assessment with their case manager who assists them with 
identifying fields of interest and resume development. This 
assistance takes the form of job skills training, workshops, 
and job search support that exposes them to jobs offered by 
over 480 established business partners.
    To date, the Texas National Guard has placed over 900 
Soldier and family members in full-time jobs. Case management 
is key to connecting servicemembers to employment.
    Another program, the Guard Apprenticeship Program 
Initiative, otherwise known as GAPI, is a partnership with the 
Department of Labor and the Department of Veterans Affairs that 
continues to build relationships with employers and colleges to 
facilitate civilian apprenticeship and employment opportunities 
for National Guard members.
    The key to GAPI are the 107 army military occupational 
specialties that translate directly to civilian occupational 
qualification requirements. Maryland is a pilot state where 
Guardsmen have been hired in the Independent Electrical 
Contractors Chesapeake Apprenticeship Program earning wages 
starting at $18.00 per hour with full medical benefits.
    By the end of their 5-year commitment, they will earn a 
higher salary than their peers as well as earning their 
national certification as journeymen electricians. Maryland 
currently has six servicemembers participating in this program, 
so this program is just getting started.
    Another very successful program that is being used in the 
State of Georgia is Drive the Guard. This program is a 
collective effort with the Commercial Driver Training 
Foundation which links guardsmen with training and 
certification programs in their communities.
    Once completed the Guardsman has a career in the truck 
driving industry. Applicants earn their commercial driver's 
license through a commercial driver's training federation 
certified school. Financing is arranged and a pre-hire letter 
is negotiated with a partnering trucking company before the 
training begins.
    Upon completion of the training, the Soldier has a job in 
the trucking industry with a salary of around 40K per year.
    In order to identify servicemembers requiring employment 
assistance, the National Guard recommends modifying the DD-214. 
Recommendations include requiring a veteran to decline or opt 
out by checking a box if they do not desire their information 
to be shared with the Department of Labor and/or Department of 
Veterans Affairs.
    Additionally, we ask that the DD-214 require a personal e-
mail address and cell phone number for a more viable method to 
contact the veteran and enhance the ability of authorized 
providers to reach out and provide services.
    These informational enhancements will facilitate transition 
and support outreach to veterans by the Department of Labor and 
the Department of Veterans Affairs. This is another method to 
identifying and contact veterans requiring employment 
assistance.
    We owe our national guard sustainable long-term employment 
solutions. Guardsmen have leadership experience, are mission 
focused, team players, and have the necessary skills and 
training employers are looking for. These attributes make them 
outstanding employees.
    In order for our Guardsmen to reach their full employment 
potential, we strongly recommend a triangular approach with a 
formalized relationship established between the National Guard 
Bureau, the Department of Labor, and the Veterans Affairs.
    This triad would coordinate the necessary case managers at 
the local level to ensure necessary assistance for national 
guardsmen in the areas of education benefits, training 
opportunities, and employment.
    All three agencies have resources in the states. However, 
their efforts must be synchronized at the local level.
    Identifying transitioning and currently unemployed 
servicemembers and case management is critical to our national 
goals and objectives.
    Thanks again and I look forward to your questions.
    Mr. Stutzman. Thank you.
    General Orr.

                  STATEMENT OF TIMOTHY E. ORR

    General Orr. Mr. Chairman, Ranking Member Braley, 
distinguished Members of the Subcommittee, it is a great 
privilege to be here today to represent the 9,400 soldiers and 
airmen of the Iowa national guard in this important discussion.
    Thank you for the opportunity to testify on this topic and 
to provide you with a perspective on the State of Iowa's 
initiatives to address this important issue.
    First, let me begin by saying that Iowa is unique in many 
ways. Thankfully our state and region currently have lower 
unemployment rates than those seen in other parts of the 
country. The employers in our state are military and veteran 
friendly and we enjoy incredible support from our business and 
communities.
    The level of cooperation between our employment and 
education partners includes the Employer Support for the Guard 
and Reserve, the Iowa workforce development, Job Connections 
Education Program, the Iowa Department of Labor, community 
colleges or universities, and the Society of Human Resource 
Managers is outstanding.
    In addition, Governor Branstad has provided key leadership 
to drive employment opportunities for our national guard 
members.
    While we remain focused on those with unemployment 
challenges, we are fortunate to have seen tremendous 
improvements in our overall unemployment numbers from those who 
have returned from the state's largest deployment since World 
War II.
    We currently estimate based on data collected during our 
deployment out-processing and our reintegration events that the 
unemployment rate of our returning warriors fell from a high of 
25 percent when they returned in August of 2011 to now a 
current rate of just under 10 percent.
    Though we still have a lot of work to do, the unemployment 
rate in Iowa is at about 5.8. We are happy to see that we are 
making a remarkable improvement among our returning warriors.
    I truly believe the success that we have seen in this area 
is a result of the steps that we took long before the 2,800 
members of our brigade combat team deployed to Afghanistan.
    Through a series of lunch and learns engagements, town hall 
meetings, pre-deployment meetings, and briefings and other 
public engagements, we initiated an information awareness 
campaign to build support and to deepen the understanding 
between the servicemembers and employers regarding the 
Uniformed Services Employment and Reemployment Act or USERRA.
    In conjunction with ESGR, we initiated a series of employer 
boss lists bringing our employers to our annual training sites 
and our post deployment training locations to witness firsthand 
the importance and the complex work that their citizen soldiers 
were doing in preparation to deploy overseas.
    I invited Dick Rue, our state ESGR chair, to stand with me 
to help answer questions about the rights and responsibilities 
of both the employers and the citizen soldiers during our press 
conferences when we announced the second brigade deployment.
    In Iowa, we know that employers also sacrifice with their 
citizen soldiers when they deploy and we work very hard to 
acknowledge this through our ESGR engagements and our employer 
recognition events.
    Opening up our toolbox, we started to look at ESGR, the 
National Guard Bureau, and other state and Federal employment 
programs designed to assist our returning warriors. One of the 
most important steps that we took was to nest our employment 
and our education counselors in order to emphasize these areas 
during the demobilization process.
    Working together, they counseled returning warriors on 
employment and education programs and benefits available to 
assist with the transition from their active-duty time.
    Thanks to the integration, an additional 900 of our 
returning warriors indicated their intent to enroll in school 
and higher education than prior to deploying.
    We screen members as they out-process and we attended all 
the yellow ribbon reintegration events to identify those that 
were still struggling with employment issues and to link them 
up with assistance.
    Working with our employment partners, we developed a one-
day course designed to assist our unemployed or underemployed 
warriors. We help them write resumes, cover letters that 
transition their military experience into meaningful skills.
    Through our partnership with the Iowa workforce 
development, we placed computer kiosks in our armories to 
assist our warriors with finding and applying for job openings.
    Last October, we supported with other state and Federal 
agencies a veterans' job fair and began posting job openings 
targeting veterans on Web sites like the national guard's Jobs 
Connection Education Program and employer partnership.
    While we still have a lot to do to ensure employment 
opportunities for all of our returning warriors, we are making 
significant progress. We will continue to work to enhance our 
tool kit, to help our warriors like working with our state 
legislature to assist with legislation that better aligns the 
state licensure requirements with the military specialty skills 
and working with our employment and private sector partners to 
continue to identify job opportunities for our warriors.
    Our Iowa national guard soldiers and airmen continue to be 
mission focused and warrior ready. Over 15,000 Iowa national 
guard members have served and sacrificed in support of the 
ongoing contingency operations here at home and across the 
world, many on multiple occasions.
    They along with their families and employers have borne a 
heavy burden to help ensure our Nation's safety and security. 
They did so willingly and ask little in return. Working 
together at every level, we have a responsibility to assist 
those struggling with unemployment issues related to their 
military service.
    I greatly appreciate the Subcommittee's work on this issue 
and I look forward to your questions on our efforts to help our 
returning warriors. Thank you.
    [The statement of Timothy E. Orr appears on p. 56.]
    Mr. Stutzman. Thank you.
    Mr. Rue, you are recognized for 5 minutes.

                  STATEMENT OF RICHARD A. RUE

    Mr. Rue. Chairman Stutzman, Ranking Member Braley, and 
Members of the Subcommittee, it is a privilege to be here today 
to represent the Iowa ESGR team in this important discussion to 
maximize employment opportunities for members of the guard and 
reserve.
    Thank you for the opportunity to testify on this topic and 
provide the Iowa ESGR perspective and initiatives to address 
this important issue.
    The primary mission of Employer Support of the Guard and 
Reserve, ESGR, is to promote a culture in which all American 
employers support and value the military service of their 
employees.
    We accomplish this through advocating relevant initiatives, 
recognizing outstanding support, increasing awareness of the 
law with our employers and our military outreach programs and 
resolving conflicts through mediation when requested.
    Under our advocate role, in fiscal year 2011, ESGR 
educated, provided consultation to, and assisted with 
reemployment challenges for employers, national guard members, 
and reservists.
    The Employment Initiative Program, EIP, was added to our 
mission in the fall of 2010 and is designed to facilitate 
employment opportunities for unemployed and underemployed 
servicemembers and their spouses.
    This program is an outgrowth of our ESGR employer and 
military outreach programs and is complementary to the current 
economic realities of our state and is aligned with our 
President's new veterans' employment initiative.
    The essence of my written testimony is that in Iowa, we 
feel we have made positive advancements towards successfully 
lowering the rate of unemployment of our national guard. This 
has been accomplished by the effective planning to ensure that 
the multiple resources in existence to support the national 
guard and employment of national guard and reserve members have 
worked in harmony towards this common purpose.
    It is easy for varying organizations to work independently 
and thus diminish their opportunity for success in achieving 
this important common goal.
    As a result of our national guard leadership, Major General 
Orr and his command staff from the earliest public notification 
of pending deployment, all related resource partners worked 
together to ensure that planning, execution, and follow-up was 
in place to support the needs of the second brigade combat team 
recently deployed to Afghanistan.
    My written testimony outlines in more detail the support, 
resources, and access that the members of the Iowa ESGR 
volunteer team received during pre-mobilization, during 
deployment, and during post mobilization up to and including 
the present.
    The key element of our ability to achieve success has been 
the communication and cooperation between and among the 
multiple resource partners, the Iowa national guard, Iowa ESGR, 
and our Iowa employers, and our support organizations, Iowa 
workforce development, DoL VETS, and the Job Connection 
Education Program, JCEP.
    As per my written testimony, this cooperation allowed for 
hands-on personal engagement by the Iowa ESGR team with 
soldiers for both education and support purposes.
    Our enhanced communications and greater efficiencies across 
all agencies yield our Employer Assistance Training Program 
targeting approximately 400 self-identified unemployed 
servicemembers from the second brigade combat team upon their 
return.
    Information regarding upcoming employment events is 
regularly emailed to these unemployed individuals, the command 
and staff of the Iowa national guard and reserve units, all 
guard and reserve members returning from deployment, and our 
Iowa ESGR military outreach volunteers.
    Additionally, the support received by all the organizations 
I just mentioned was effectively channeled towards Iowa 
employers through the pre, during, and post mobilization time 
frames via multiple events and touch points throughout the 
state.
    Now, with the Employment Initiative Program, our associated 
partnerships within the state and the continued support of the 
Iowa national guard, Iowa ESGR is well prepared to continue our 
history of assisting servicemembers and employers to connect 
more effectively than ever before.
    Thank you.
    [The prepared statement of Richard A. Rue appears on p. 58.
    Mr. Stutzman. Thank you.
    And, finally, Mr. Young, you are recognized.

                  STATEMENT OF RONALD G. YOUNG

    Mr. Young. Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Committee, thank you for this 
invite to appear before you today.
    I am the director for Family and Employer Programs and 
Policy within the Office of the Assistant Secretary of Defense 
for Reserve Affairs. My responsibilities include employer 
support of the guard and reserve, ESGR, the Yellow Ribbon 
Reintegration Program, and individual and family support 
policy.
    I welcome the opportunity to provide you an overview of the 
support we are providing to guard and reserve members.
    First, let me speak to the latest statistics on the 
unemployment rate among the reserve component.
    The latest status of forces survey shows an overall 
unemployment rate of 13 percent. In the junior enlisted ranks, 
E1 to E4, the rate is 23 percent.
    We take this high unemployment rate very seriously and 
later in my testimony, I will speak to the specific actions we 
have taken to address this readiness issue.
    A key focus in my office is Employer Support of the Guard 
and Reserve. Through the network of over 4,800 ESGR volunteers 
across the country, ESGR helps to educate servicemembers and 
employers about their duties and responsibilities under USERRA, 
the Uniformed Services Employment and Reemployment Rights Act.
    As we all know, the overwhelming vast majority of employers 
greatly support the men and women in uniform and that applies 
equally to the reserve component. For the past 40 years, ESGR 
has played a role in garnering that employer support and we 
recognize employer support through a variety of awards 
programs.
    This past year, over 4,000 servicemembers nominated their 
employers for the prestigious Secretary of Defense Employer 
Support Freedom Award. We also had over 45,000 employers sign 
statements of support.
    Another key aspect of ESGR is our tremendous Ombudsman 
Program with over 600 trained USERRA experts across the country 
to answer questions, inquiries, and to help resolve conflicts 
between employers and their employees or the servicemembers.
    Most importantly today let me speak about the initiatives 
we have undertaken to assist in reducing the high unemployment 
rate within the reserve components.
    A year ago, ESGR and the Yellow Ribbon Reintegration 
Program launched the Employment Initiative Program, EIP. Our 
ESGR committees across the country increased their activities 
to address the unique unemployment needs of the reserve 
component. I say unique because over 300,000 reserve component 
members are not veterans. They do not meet the statutory 
definition of having 180 days on active duty and, therefore, 
they do not qualify for benefits under the Veterans Affairs or 
DoL.
    Beginning in March 2011, ESGR assisted the National Chamber 
of Commerce in their launching of the mega hiring fairs across 
the country. I just received the latest report from the 
Chamber. There have been 85 events to date in 42 states 
connecting over 84,000 veterans, reserve component members, and 
military spouses to employment opportunities with 4,300 
different employers. The latest information says that over 
7,300 of those folks have gained employment.
    In 2012, we will continue this effort and we will have 40 
events focused entirely on the reserve component community 
where there is high unemployment.
    Six weeks ago, on December the 16th, we launched Hero to 
Hired, better known as H2H. H2H is a comprehensive, 
multifaceted program targeted to support reserve component 
servicemembers.
    Using lessons learned from over this past year and 
successful experiences such as the army reserves, employer 
partnership of the armed forces, and some of these programs you 
have heard about with the national guard, H2H was developed to 
address the employment assistance services and support gaps so 
that it could be applied to all members of the reserve 
component. H2H contains all the tools a job seeker needs to 
find a job.
    Today the Yellow Ribbon Reintegration Program and ESGR are 
delivering meaningful services to assist guard and reserve 
members in transition, reintegration, and finding employment.
    On behalf of Yellow Ribbon, ESGR, and its 4,800 volunteers, 
I thank you for your continuing support and I look forward to 
your questions.
    [The statement of Ronald G. Young appears on p. 60.]
    Mr. Stutzman. Okay. Thank you to each of you for your 
testimony. And I will begin the questions.
    I am just going to ask to any of you on the panel, is it 
time to make TAP mandatory for all Guard and Reserve units? Any 
one of you can answer.
    General Watson. All right. It is my professional opinion 
that we should provide some form of Transition Assistance 
Program, but what we are really looking for, I believe, for the 
reserve components is a flexible option in which to get the 
information to our servicemembers.
    Mr. Stutzman. Any proposals and how do you do that?
    General Watson. Right now there are a number of proposals 
being discussed that would extend the demobilization time that 
a servicemember stays at the demobilization site.
    It is my professional opinion that we focus on providing 
some information at the demobilization site, not extending the 
individual's time at that site.
    However, having an on-line program, if you will, that 
correlates also with yellow ribbon events so that it is all 
nested for a transition program and yellow ribbon events to 
identify those individuals who truly need employment and 
education assistance.
    Mr. Stutzman. How long are guard units in--do they stop 
over in Kuwait before they come back to American soil? Do any 
of you know?
    General Orr. Sir, it depends on where they come, what part 
of the theater. What we have seen now that we--you know, I will 
speak from the brigade that just came home from Iowa. They 
basically move from Afghanistan and it takes about 30 days for 
the brigade combat team, about 3,500 members, to get home. They 
move from Afghanistan directly to what we call a demobilization 
station. In this case, it was Fort McCoy, Wisconsin. And then 
we are there from--it can vary from six to fourteen days.
    For the second brigade, we were able to get it accomplished 
through a coalition effort. In an organized approach, we were 
able to get everyone through in six days. That included a 
complete medical evaluation, their line of duties input into 
the system, but it also, as I talked about in my testimony, it 
linked the education and the ESGR. We had them at the demobe 
site.
    So what was instrumental there was that a soldier would 
come through and if they had an employer issue, ESGR could 
engage that. If they needed employment, then we captured that 
and we provided them with the assistance. If they were thinking 
about education and were not sure, we then signed them up with 
our education and we linked all the tuition assistance to 
include our state program so that they were ready to roll into 
college before they ever got to home.
    And so that six to fourteen days varies on units, but there 
is normally not an interim stop between their theater of 
location and the demobilization site.
    Mr. Stutzman. So would it be fair to say that with every 
site that they are transferring through, if they have six to 
fourteen days, are we taking advantage of those six to fourteen 
days to use TAP?
    General Orr. Is it within the window of time to do that, 
yes, sir. The challenge we would have is I think if you tied it 
in with again some of the existing programs, the education 
support that we get through our education offices, the ESGR, 
and our other programs we talked about earlier that are engaged 
there, that may be an additional task that could be picked up 
and actually applied to those specific soldiers that are 
interested or have a need. The window of time at the 
demobilization site would support, though, that task.
    Mr. Stutzman. About how much time do the other programs 
take roughly? Did you say ESGR and you mentioned one other?
    General Orr. The education, it really depends on a soldier. 
If a soldier comes through and says I have my employment, I 
have no issue with my employer, I have a great employer, I have 
employment, you know, I am 40 years old, I am done with school, 
then it is real easy. They move on and they go to their next 
station.
    We probably spend most of our time with that group that was 
talked about earlier, the 18 to 24-year-olds. In many cases, a 
lot of these young soldiers have deployed right out of high 
school to basic training and so they have not even started 
college yet let alone employment.
    So that is the largest group of the population that we 
deployed and, yet, we do have others that fall within those 
outside regions. And so it is really a by case-by-case basis.
    But the goal and intent is to ensure that everyone goes 
through there and that we validate the information so that we 
know as a state what we have and how do we apply those 
resources not only then but once they get home where it really 
matters at the 30, 60, and 90-day yellow ribbon events.
    Mr. Stutzman. Are those other programs mandatory?
    General Orr. Yes, sir. The 30, 60, 90-days yellow ribbon 
integration is mandatory and we interject our ESGR, our 
education at those each and every time.
    So if you come home and you do not want to say anything at 
the demobilization site because you just want to get home, then 
at 30 days after you have had some time to recoup from the 
deployment, we start to find those issues that may surface, and 
that includes the health care issues that surface, and then we 
adjust accordingly.
    Mr. Stutzman. Okay. I would ask of the other two states, is 
it the same?
    General Haston. Sir, in Tennessee, it is almost the same, 
but one of the things that we do is we add a reverse SRP 
process at the end. And this is after the units leave the 
mobilization station and they come back home.
    As General Orr pointed out, a lot of times, soldiers, they 
want to get out of the mobilization, get that immediate 
reintegration with their families.
    But when they are back, we allow a brief integration and 
then we take the soldiers and we sit down under a less 
pressured, stressful environment and that is where we really 
apply the ESGR and the employment process and get a detailed 
look at the soldiers and the airmen that are coming back.
    We, again, as the 30, 60, 90-day yellow ribbon events, as 
we go through, we have stations and have access to all the 
different programs that are available. We see that gradually 
increase as we get closer to the 90 days. And the problem 
decreases, too.
    Mr. Stutzman. General Washburn.
    General Washburn. In Indiana, sir, our model is along the 
lines of what Tennessee does, very similar.
    Mr. Stutzman. Okay. All right. Thank you.
    Mr. Braley.
    Mr. Braley. Major General Haston, as I sit up here and look 
at you sitting with Brigadier General Washburn and Major 
General Orr, I am struck by the irony of the fact that in 2 
months we will be observing the 150th anniversary of a little 
thing that happened in your state at a place called Pittsburgh 
Landing that was the first horrific battle of the Civil War.
    And a lot of Iowa farm boys and Indiana farm boys met a 
bunch of Tennessee farm boys and there are a lot of them buried 
there. And they were national guard and militia for the most 
part. And for a lot of them, they did not see their homes for 
another two to 3 years. And they came back 150 years ago 
looking for work. And here we are in 2012 talking about the 
same problem.
    I got sworn in on January 4th of 2007 as a new Member of 
Congress. During that period, the Iowa national guard, as Major 
General Orr has testified, was in the middle of the longest 
single combat deployment of any unit in Iraq.
    I remember so well on Sunday night before Memorial Day that 
year 60 Minutes devoted an entire program to something called 
fathers, sons, and brothers tracing a 2-year period of 
sacrifice by the Iowa national guard. And it was an 
extraordinary thing for 60 Minutes to devote a whole hour to 
one subject and it won an Emmy.
    We forget what an extraordinary burden we have placed on 
our guard and reserve units. I think if you look at the opening 
of that program, it really captures why we are here today. This 
is how that program started.
    Rarely has our country asked citizen soldiers to shoulder 
so much of the burden of war. One-third of the troops fighting 
are national guard and reserve. More than 400,000 soldiers 
called away from their civilian lives. And those numbers, as we 
know, have grown dramatically since then.
    So one of the things I want to hear from all of you is what 
lessons have we learned in this last 150 years about how we 
address this problem.
    And you talked, Major General Orr, about boss lift. And I 
had the great pleasure of going to Camp Shelby in Mississippi 
with one of those boss lifts and it was extraordinary to see 
the reactions of some of those employers who the first time 
were getting to experience what so many of their employees had 
spent so much of their lives preparing to do.
    So I would be interested in your thoughts about how we have 
opportunities to shape the perceptions of employers to bridge 
this gap of employability that we are here today to talk about.
    General Orr. Congressman Braley, I think you would give 
this great thought because this is one of a couple challenges 
that we constantly deal with as adjutants generals.
    You know, I would tell you I think the programs that we 
have, and I speak for my State of Iowa, I think we have the 
programs that we need. It is the outreach that we have to 
continue to do.
    And, you know, I look back at the model. We learned over 
the last 10 years of a lot of experiences in this last 
deployment. I think looking at the combat teams that had gone 
before us is what do we have to do in our state to ensure that 
we do not experience the 32 percent that Vermont had, you know, 
and others have had before us and knowing that the conditions 
are different in each state.
    I think what we have been able to do is the partnership is 
probably the greatest lesson learned. It is to be able to sit 
the Federal, the state, the local, the community, the business, 
and the national guard down and address this early on from the 
deployment perspective before we ever send a soldier and airman 
and say what is it that we need to do as a state to 
collectively support these men and women.
    And granted, you know, there is still going to be gaps at 
the end of this, but what we are finding is that business and 
industry--a great example is the principal corporation, 
financial corporation in Iowa. They recently 2 weeks ago hosted 
a program, Hire our Heroes Program on their own. An ESGR 
recipient of the Department of the Army's award secretary, 
Defense's award felt like they needed to give back. They have 
challenged now over 68 Chambers of Commerce in the State of 
Iowa to go out and to hire veterans. They have put up $60,000 
to put a video out to ensure that the word has.
    So I think the lesson learned for us is it is continued 
communication, collaboration, and that we have to take the 
existing programs that we have and we need to make them work. 
And we have to connect that with our soldiers and airmen every 
chance that we get.
    Mr. Braley. Thank you.
    Mr. Rue, I want to talk to you from the employer's 
perspective and the ESGR's perspective because I have worked 
with a lot of these employers in Iowa and there are large 
corporations, some of the largest ones in our state, and there 
are smaller companies and mid-sized companies. And they all 
have the same dedication of purpose to the objective of finding 
work for veterans and keeping them employed.
    But I have also discovered, and this came out at some of 
the field hearings we had, larger employers as a general rule 
have bigger human resources department, they have greater 
abilities to try to take some of the translation of MOS 
language into the civilian workforce, and put together programs 
they use in recruiting, identification of potential employees.
    And I guess one of the concerns I have is what are we doing 
to help those smaller employers, the single-family businesses 
who want to do the right thing but do not know where to look or 
how to find a model that helps them address that issue.
    Mr. Rue. Well, I think the key factor is engagement and it 
is face-to-face engagement. We have 167 volunteers in Iowa 
spread almost equally in 12 areas throughout the state. And we 
engage all employers, small and large.
    And there is also an issue of working in harmony with all 
the other resources. You referenced the boss lift. I can get 
the employers, but he can get the assets. And we work together 
to ensure that those things take place.
    And I think you met many of the employers on that boss 
lift. And we had large and small alike. We had members from 
cities, mayors, other elected officials that attended. And they 
are also businesspeople.
    So the real key is engagement across the board to your 
question.
    Mr. Braley. I yield back, Mr. Chairman.
    Mr. Stutzman. Thank you.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    I am concerned about the unemployment rates of our 
guardsmen and our reservists, of course, and I have sponsored 
legislation to provide employers with tax credits of up to 
$2,000 for their guardsmen or reservist employees called to 
active duty.
    And then we also with Mr. Walz co-sponsored legislation 
which requires TSA to comply with the USERRA requirements.
    The question is for the panel, what steps do you take to 
inform your servicemembers about their rights under USERRA, and 
I know, sir, you addressed that? If anyone wants to address 
that issue, I would appreciate it very much.
    General Haston. Sir, annually it is a requirement that we 
sit down and meet with our servicemembers and we tell them 
every year during our required briefings what their rights are.
    Our ESGR team across the State of Tennessee goes down to 
the troop company battery level and sits down with the members 
there and talks to them in terms that they can understand and 
not in legal jargon so that servicemember knows what his rights 
are.
    And then when they have a problem, they come back and 
usually it is sorted out before it ever gets to an ombudsman 
level.
    We have found that our ESGR has really transitioned from a 
team that goes out and mediates to a team now that is going out 
and helping get our soldiers and our airmen employment.
    Mr. Bilirakis. Anyone else?
    General Orr. Sir, I think for the mobilization, what has 
helped us in the last four to 5 years is the time of 
notification to deployment. You know, many cases today, we have 
2 years. And so that is important to employers to have a 
notification so they can have a little bit of stability and 
make a plan.
    What we try to do in addition to what General Haston talked 
about is on the deployment piece on the front end of this is we 
really engage specifically through our ESGR team those soldiers 
and airmen that are getting ready to deploy to identify 
potential issues and problems.
    I think that what is important at the same time on the back 
end of it is before they come home, we bring the family members 
in and we do a reintegration with the family. And we hit the 
family members with the same issues that we talk to the 
soldiers.
    So there is a coalition collaboration between family 
members and the soldier, airmen when they get home from that 
piece when we talk about deployment and then all the additional 
things we do on the back end.
    Mr. Bilirakis. Anyone else?
    [No response.]
    Mr. Bilirakis. All right. Well, as a follow-up, and I think 
it is so important to bring the families in, there is no 
question, I appreciate that, do you believe the current level 
of restrictions placed on employers by USERRA are making it 
harder for national guardsmen and reservists to get jobs? Any 
opinions on that?
    Mr. Young. Sir, Ron Young. I do not quite honestly. I think 
USERRA protects the rights for our servicemembers and it 
imposes responsibilities on employers and educating both about 
their responsibilities.
    And what we find is that the vast majority of employers 
abide by the USERRA law and the restrictions. And so I think 
USERRA quite honestly since 1994 and all the amendments since 
has it just about right now.
    Mr. Rue. Sir, I would add as well that I agree with Mr. 
Young's comments. I am a businessperson. In my duties as the 
state chairman of ESGR for Iowa, I meet hundreds of 
businesspeople and I have not seen anyone concerned with the 
restrictions. What I find is they are extremely proud to employ 
members of our armed services.
    Mr. Bilirakis. All right. And, again, we really need your 
input on this. And I know this question has been asked already, 
but I want to give you another shot at it.
    What do you think should be done to make hiring conditions 
more favorable for our guardsmen and our reservists?
    General Washburn. One of the big things is to make sure 
that the employers understand what they are really getting when 
they hire someone with a military background or currently in 
the military.
    It is all about what value and what benefit is there for 
them and if we can help them better understand that, and that 
is one of the keys that we do with our employer partnership in 
Indiana in the Indiana national guard, is to have that two-way 
dialogue and to make sure that through closing the loop after 
the fact, after the hiring actually takes place, to make sure 
that that relationship is still there and that bond is still 
strong.
    Mr. Bilirakis. Anyone else?
    Mr. Young. Mr. Congressman, I would like to offer a couple 
points. I believe right now with the different programs in 
place, I believe we have a pretty good high-tech solution to 
linking employers with servicemembers that need jobs.
    As General Watson talked about, she talked about case 
management. One of the areas that we are working on, and our 
4,800 volunteers help with that, is working the one-on-one 
piece.
    Our servicemembers need help in taking their military skill 
sets and putting them in civilian vernacular. And the ESGR 
committees and each of these leaders has instituted programs 
within their particular states that is doing just that with the 
employee assistance workshops, working with DoL VETS and those 
are working very well.
    And then they are linking those servicemembers needing jobs 
with the Yellow Ribbon Reintegration Program and quite honestly 
the numbers look good.
    The program down in Texas where over 900 have found jobs, 
it is that one-on-one approach. And as I said when I was in 
uniform, every servicemember counts. Every one of these 
servicemembers counts and it takes some personal attention.
    It takes leaders who recognize that people in their squads 
do not have jobs. It takes mid level NCOs that understand that 
they have a squad to take care of. They took care of them when 
they were in theater. Now they need to take care of them when 
they are back home.
    So it is becoming a peacetime army and getting engaged with 
those NCOs and those leaders and watching over their 
servicemembers. A marine for life, that type of a scenario.
    So thank you very much.
    Mr. Bilirakis. Thank you very much.
    I yield back, Mr. Chairman. Appreciate it.
    Mr. Stutzman. Okay. Thank you.
    This question would be directed towards Major General 
Haston or Brigadier General Washburn and Major General Orr.
    Looking at this chart, we see that there is a direct 
correlation between unemployment, weekly pay, and education. 
And I know that some states have already done some work within 
their own states.
    What have you all done or do you have anything in your 
states that would provide any additional education to our 
guardsmen?
    General Haston. Sir, in Tennessee, we 2 years ago started 
the Tuition Assistance Program and it is where legislation in 
Tennessee provided resources to the military department to 
assist with in-state tuition.
    The army guard has through its program tuition assistance, 
but the air national guard did not. And so these resources that 
I get that is allocated that I put in my state budget and that 
I present to our state legislator gives us those resources to 
do that. And that has been a huge success within our young 
members of the Tennessee air national guard.
    As state budgets get smaller across the board, we have had 
to argue harder for those resources. And the language in the 
law allows me as the adjutant general and the commissioner of 
the military department to set the parameters of how those 
resources are disbursed.
    And so what I have done is I have focused that purely on 
tuition for soldiers or airmen to get their GED if they did not 
have that and to get a bachelor's degree or an associate 
degree. It is not provided for officers because by and large 
they already have a degree to be an officer or to extended 
education such as, you know, master's or doctoral programs. And 
that has been a success thus far.
    Also, we have worked with some private universities, David 
Lipscomb College in Nashville, for example, that has what works 
with soldiers to get their GI Bill and then works with private 
corporations to get the additional resources to continue their 
education, to make up the difference of that.
    So across Tennessee working with the board of regents and 
the Land Grant University and working within our units and our 
education through our J9, we have been pretty successful and 
having those opportunities available.
    General Orr. Sir, in Iowa, we have a very similar program. 
We call it the NGEAP, the National Guard Education Assistance 
Program.
    I think, you know, in addition to our mobilization soldiers 
that also qualify for the Post-9/11 GI Bill and the other 
benefits, where these really become significant is for the 
young men and women who have not deployed and our air national 
guard members that are right along with us.
    There is no Federal program for the air members, so, you 
know, I am proud to say in Iowa, like many of the states that 
have this program, is we provide this semester up to 90 percent 
of tuition assistance towards a state university, community 
college equivalent that can be used. And I think it is a very 
successful program.
    This week, the first bill signed by the governor this week 
was an additional $1.4 million by the legislature to fund us to 
90 percent. Because of the amount of soldiers and airmen that 
came into college after the deployment, we were down to a 50-
percent tuition assistance. And through their efforts, the 
first bill passed.
    So you talk about support for the men and women in our 
state, that is a great testament right there.
    Mr. Stutzman. Thank you.
    General Washburn, any comments?
    General Washburn. We have these programs in Indiana as 
well. What we are looking to do is to improve the utilization 
of them, more outreach to use the tuition assistance that is 
available, and to apply for the grants that are available, the 
grants and the scholarships that are available. That is what we 
would like to see. Other than that, our programs are the same 
as Iowa and Tennessee.
    Mr. Stutzman. Okay. Very good. Thank you.
    Mr. Braley, anything further?
    Mr. Braley. I just want to make an observation about this 
incredibly critical component of every national guard unit and 
that is the tuition assistance which not only helps recruit new 
members but gives those existing members of those guard units 
some sense that their country believes in them and wants to 
invest in them.
    Yet, sadly when you have a unit that had served the longest 
combat deployment in Iraq and they come home and somebody at 
the Pentagon cuts their orders short by one, two, three, four, 
or five days, so they are ineligible for a $250 a month 
additional tuition bump under the GI Bill, it sends a horrible 
message.
    And it should not take Members of Congress to get that 
problem solved when it is initiated from the Pentagon. And I 
think that we have seen so much sacrifice by our guard units 
and we saw historically why they are playing such a critical 
role in our overall defense strategy that we need to think 
these things through seriously before we put them in a position 
where they doubt whether their government is standing with 
them.
    So I just want to offer that editorial comment.
    Mr. Stutzman. Okay. Thank you very much to all of you for 
being here and thank you in particular for your service to our 
country and to our guardsmen as well. And we will excuse you 
all.
    And we will call up our last and final panel. The final 
panel has just one witness and it will be the Acting Assistant 
Secretary of Labor for Veterans' Employment and Training, 
Ismael Ortiz.
    Okay. Thank you.
    Mr. Ortiz, welcome, and we appreciate your work that you 
have been assigned to. And we know that you are an integral 
part of the many ways that we help our veterans and to also 
help create solutions and increasing employment opportunities 
for all our veterans including the members of the guard and the 
reserves.
    So you are also responsible for helping implement the Vow 
to Hire Heroes Act, so no pressure for you, right? And so thank 
you for being here and you are recognized for five minutes.

    STATEMENT OF ISMAEL ORTIZ, ACTING ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
                             LABOR

    Mr. Ortiz. Thank you, sir.
    Good morning, Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee.
    As you know, my name is Junior Ortiz, Department of Labor's 
Veterans' Employment and Training Service. Thank you for the 
invitation to testify today and for holding this important 
hearing on lowering the unemployment rate of our national 
guard.
    I would like to provide an overview of the work VETS is 
doing to lower this unemployment rate and our efforts to 
educate members of the military, guard, reserve, as well as 
employers about the provisions of the Uniformed Services 
Employment and Reemployment Rights Act.
    The military transitions approximately 160,000 active-duty 
servicemembers and demobilizes approximately 95,000 reserve and 
national guard servicemembers annually.
    One of the department's programs aimed at meeting this need 
is Job for Veteran State Grants which funds our DVOPs and LVERs 
Program.
    These employment specialists provide outreach and intensive 
employment services through nearly 3,000 one-stop career 
centers across the country. These services benefit both active 
duty and reserve components.
    Last year, JVSG provided service to nearly 600,000 veterans 
of which more than 200,000 veterans found jobs.
    Another important VETS program is the Transition Assistance 
Program which provides employment workshops and direct service 
for separating servicemembers including members of the national 
guard and reserve.
    In fiscal year 2011, over 144,000 transitioning 
servicemembers and spouses attended the TAP employment 
workshop. Of those attendees, 2,249 were guard and reservists.
    VETS has also taken steps to provide transition assistance 
and employment services to demobilizing members in the guard 
and reserve in the event that they are not located near the 272 
locations where TAP is normally provided.
    VETS state directors work with the stay behind element of 
the units and coordinate requested support as part of the 
planning process when units are in their area being 
demobilized.
    Let me share a couple of examples. VETS in the Oregon 
employment department have partnered with the Oregon national 
guard and others to address the employment needs of returning 
guards and reservists. This past year, while the 3rd 116th Cav 
Unit was deployed to Iraq, the commander surveyed the 
employment status of the deployed personnel. The information 
was used to coordinate Skype employment interviews with local 
employers. Upon return from the deployment, 51 of the 113 
original soldiers surveyed found jobs after their release from 
military service.
    When I testified before the Committee in December, 
Congressman Walz mentioned the Red Bull brigade combat team 
project in Minnesota. The project intends to hire two LVERs and 
three DVOPs to work specifically with this brigade.
    In partnership with ESGR, pre-deployment interviews were 
held with each member to identify employment and training 
needs. Five hundred and fifty servicemembers are either 
unemployed or underemployed. Thus, a referral process is being 
developed to provide these servicemembers assistance 
immediately upon their return.
    Similar efforts are happening all across the country. Our 
DVOPs are working closely with JVSG staff, several other 
organizations, some of whom were here today, to coordinate as 
many services to the veterans and reserve components as 
possible in their states.
    To complement the core programs of our service, we have 
also provided intensive service and on-line initiatives such as 
the gold card, the veterans' job bank, and my next move for 
veterans.
    We are working together with private sector to increase 
employment to our veterans and returning servicemembers. As of 
this point, as Mr. Young mentioned, Chamber of Commerce in 
partnership with ESGR and VETS has hosted numerous hiring fairs 
with more than 84,000 veterans and military spouses have been 
given the opportunity to meet with 4,300 different employers. 
And as a result, more than 7,300 veterans and military spouses 
and 60 wounded warriors have found employment.
    Lastly, I would like to discuss DoL's efforts to educate 
and enforce the provisions of USERRA. VETS investigates 
complaints filed by veterans and other protected individuals, 
assesses complaints alleging violations to statutes requiring 
veterans' preference in Federal hiring, and implements and 
collects information regarding veterans' employment by Federal 
contracts.
    Outreach and education are the best ways to ensure that our 
servicemembers' and veterans' rights are protected under 
USERRA. Having said that, VETS will continue its aggressive 
public campaign not only to our servicemen and women but 
employers, attorneys, and human resource professionals as well.
    VETS conducts mobilization and demobilization briefings to 
all guards and reserve units and provides direct technical 
assistance to returning and deploying servicemembers and their 
families.
    Since September 11th, VETS has briefed nearly one million 
individuals on USERRA. We plan to continue our outreach 
activities and remain confident in our abilities to provide 
timely and accurate information to the veterans we serve.
    VETS is fully committed to fulfilling our mission and with 
the help of our stakeholders and partners, we will continue to 
work to improve the services and programs we provide.
    Chairman Stutzman, Ranking Member Braley, Members of the 
Subcommittee, this concludes my statement. Thank you for the 
opportunity to testify today and I would be pleased to answer 
any of your questions, sir.
    [The statement of Ismael Ortiz appears on p. 62.]
    Mr. Stutzman. Thank you, Mr. Ortiz, and thank you for your 
testimony.
    In your written testimony, you state that VETS often 
provides the three core components of TAP to guard and reserve 
units at the unit commander's request.
    How many of these type of briefings does a VETS complete in 
a year? And then I will ask you the same question I asked the 
previous panel. Is it time to make TAP mandatory for guard and 
reserve units?
    Mr. Ortiz. Sir, we provide briefings not only into TAP and 
USERRA and everything else in conjunction with ESGR when the 
individuals are mobilizing and demobilizing. The specific 
number I do not know, but I will find out.
    As far as making TAP mandatory, we have provided the 
services to our reserve and national guardsmen to date again 
with the help of ESGR and the partnerships that we have with 
the tags.
    We will continue to do whatever needs to be done. If it 
becomes mandatory, again, sir, we are standing by to make that 
happen.
    Mr. Stutzman. Also, you had stated that TAP includes labor 
market information. As part of that, as each participant is 
given information on the specific labor market in the area 
where the participant intends to live--I am sorry. Let me 
restate that.
    As part of that, is each participant, are they given 
information on the specific labor market in the area in which 
they intend to live?
    Mr. Ortiz. Congressman, what we normally do is, depending 
on the state, for the national guard and reserve, it is pretty 
easy because, I mean, the majority of them will stay in that 
area. So, of course, yes. When we give information on the 
market, the market information is usually within that area.
    However, if the individual decides to go to other places, 
it depends exactly on a one-on-one basis, but the majority of 
the time, to answer your question, yes, sir, we do. We provide 
market information within that specific area.
    Mr. Stutzman. And when a guardsman is moving to another 
area, that information is included as well for----
    Mr. Ortiz. If we find out and, again, depending on how you 
work with the unit commander, how you are working not only with 
the unit commander but the individual units themselves, 
specifically if we have onesies and twosies that come in and 
say, hey, instead of being in Indiana, I am going to go to 
Iowa, at least being able to find out what those particulars 
are, being able to pass it off, if you will, to our DVET in 
that specific area or our one-stop career centers in that 
specific area also can give that kind of information.
    Mr. Stutzman. Have you heard about the Pipeline Program 
that was mentioned earlier by Ms. DeRocco?
    Mr. Ortiz. Yes, sir, we have. Matter of fact, we are 
presently having a meeting, I think it is next week, to hear 
all the particulars with DoD on exactly what they have to offer 
and all the specifics on it, sir.
    Mr. Stutzman. Okay. And then also General Orr had stated 
that in Iowa, they have placed employment kiosks to assist 
guardsmen in armories throughout the state.
    Is it common, first of all, in any other states that you 
are aware of and then is this something that should be 
replicated throughout other state workforce agencies around the 
country?
    Mr. Ortiz. Actually, sir, I was not aware of that. However, 
after talking with General Orr on those, it would be a very 
helpful tool because it gives information on everything that is 
available there.
    And along those same lines, I mean, you can look at some of 
the initiatives that DoL has actually put out there, whether it 
be the job bank or whether it be my next move for veterans, to 
be able to at least go in there and put in that information so 
that way, they can find out specifically what their MOS is, 
specifically how that translates to a civilian job.
    So to answer your question, sir, I think it would be a 
great idea.
    Mr. Stutzman. Yes, I agree. I think, too, it is a good 
idea.
    Ms. DeRocco also mentioned that manufacturers have little 
interaction with the state employment services. You want to 
comment on that? I mean, we have seen this before in the 
hearings that we have had that there is a disconnect between 
the DVOP and LVERs and those offering employment services 
around the country.
    Mr. Ortiz. Sir, I am not going to comment on specifically 
what she put out as far as how she is doing it. The basic 
premise behind this is our LVERs are going out there to 
outreach to employers. They are going to find out what is 
available out there in order to help our veterans that come in 
because as they come in, we are able to say, hey, these are 
your skill sets, this is where we are at, these are the 
opportunities that are available out there.
    If for some reason, as she stated, she said it is up to the 
manufacturer who turns around and wants to go and let people 
know what is available, that defeats the purpose. If you have a 
facility, and I will put it in the simplest terms, is if you 
have some place that you can put information that is going to 
help attract the individuals that you are trying to attract, 
then by God use it.
    I cannot speak to why they would not do it or anything. I 
can only speak that we have one-stops across the country that 
actually help in being able to provide that information to our 
veterans, whether it be national guard, reservists, or veterans 
across the board, on opportunities that are out there.
    If I do not know what those opportunities are, I cannot 
turn around and continue to push that on.
    Mr. Stutzman. You know, as I think about this and where we 
are putting the dollars, there comes a point when we have to 
look at the value that we are getting from DVOPs and LVERs.
    Would we be better off at some time putting more of those 
dollars into educating those who are transitioning back into 
the workforce? I mean, you understand?
    If they would get the education that they need, it gives 
them the tools that they need rather than focusing on placement 
because it seems like we have a disconnect that we continually 
hear about. And, is it a problem that can be resolved and 
fixed?
    Mr. Ortiz. If I understand your question correctly, sir, we 
are talking about our transitioning servicemembers or our 
veterans across the board coming out and having the specific 
information on areas.
    Unfortunately, and as, you know, as a parent of someone who 
transitioned out, sometimes our transitioning servicemembers 
are not really aware of exactly where they want to go. We have 
some that know exactly what they want, how they are going to 
achieve it, and they go for it.
    To be able to kind of give them a general purpose, which is 
what the transition assistance workshop is trying to do, to 
give them an idea and the tools they need to be able to get 
that program together, if you will, their individual transition 
plan, to go forward so that way they can find it and then go to 
a specific entity that is going to help you achieve that goal, 
that may be the one-stop. That may be education. That may be a 
combination of things.
    I think to be specific in the area unless you get a one-on-
one kind of thing with a specific individual, transitioning 
member, which is what, I mean, honestly, sir, that is what the 
gold card initiative is supposed to do, once that individual 
comes out to be able to go right with them and have 6 months of 
an individual one-on-one.
    As the tags told you, if we have a one-on-one kind of 
thing, hey, I can place anybody. But to make that a completely 
big statement, sir, you are talking about a transition 
employment workshop or a transition process, if you will, that 
would take a lot longer.
    Mr. Stutzman. And I understand that. And I guess that is 
why I am questioning, at some point, do we need to reevaluate?
    And, the value that we are receiving, because that is a 
tough job, it is a big job, would we be better off at some 
point saying we need to make sure that we are providing enough 
education assistance for the guardsmen or for the soldier 
coming out of the military focusing our attention on that part 
and then, hoping that that will naturally give them the tools 
that they need to transition into the workforce because they 
have those tools and not counting on placement help from DVOP 
and LVERs, that is really a tough challenge to accomplish?
    Mr. Ortiz. I am in agreement with you, sir. I mean, it is a 
matter of how we wanted to reevaluate certain things. I think 
what we are trying to do now as far as transitioning our 
servicemembers to get them to a point where they at least have 
the tools to be able to do exactly what you are saying, sir.
    Mr. Stutzman. I just want to make sure we get the best bang 
for our buck and, you know, making sure that our men and women 
who come out of the military are getting that I think is 
important.
    Mr. Ortiz. I am in agreement with you, Chairman.
    Mr. Stutzman. Thank you.
    Mr. Braley.
    Mr. Braley. Mr. Ortiz, welcome back.
    Mr. Ortiz. Thank you, sir.
    Mr. Braley. Mr. Lara, Minority O&I Subcommittee Staff 
Director, and I have one very pressing question for you.
    Mr. Ortiz. Sir.
    Mr. Braley. Why Junior? I told him I think it is because 
everybody trusts a guy named Junior.
    Mr. Ortiz. You know what, sir? If I was in rural America, 
you are absolutely right.
    Mr. Braley. I have a question for you about the Guard 
Apprentice Program initiative that you discussed in your 
testimony. And you wrote continues to build relationships with 
employers and colleges to facilitate civilian apprenticeship 
and employment opportunities for national guard and reserve 
component members.
    My question to you is, are you also partnering with labor 
unions which have existing apprentice programs and have many 
veterans who are members?
    Mr. Ortiz. Actually, sir, yes, we have. And we have been 
doing that for many years. You know, helmets to hard hats is a 
perfect example.
    I will talk to you about a specific one, welders, a 
welder's program, pipe fitters and welders out in California 
where the services have actually come and we joined with them 
to do certain things. The marines actually were doing this.
    So to answer your question, yes, sir, we have. And I think 
now it is getting even more involved because the skills that 
these young men and women bring out there, especially as an 
example, navy individuals, Heltecs. Heltecs are plumbers, 
pipers, you know, can weld, can do things like that, RCBs from 
the navy side of the house or, for that matter, in the army or 
the air force, those technicians that actually work on a lot of 
those things.
    The unions out there see that as a great piece. So, yes, 
sir, we have. And we cannot specifically turn around and tell a 
person go and see so and so or go do this. However, at the one-
stop centers, those individuals are told about specific 
entities.
    So I think it helps them at least identify what their 
capabilities are. Our DVOPs and LVERs can actually do that for 
them.
    Mr. Braley. Is that a more common practice in states that 
have large military installations in their states than it is in 
states like mine that do not?
    Mr. Ortiz. Congressman, I cannot answer that, sir, because 
I do not know.
    Mr. Braley. Okay.
    Mr. Ortiz. And I would be remiss if I told you, yes, sir, 
that is what it is.
    Mr. Braley. You also testified that transitioning 
servicemembers often do not know where they want to go which is 
something we have seen and heard at some of our hearings. We 
never really talk a lot about small business entrepreneurs 
because a lot of young people have never really had an adult 
job because they have either enlisted before they had that 
opportunity or they have gone to college and then they get 
deployed in a guard unit and they come home and that is their 
first real opportunity to decide what are they going to do with 
the rest of their life.
    Are we doing anything for those individuals who may want to 
be the ones giving the orders and running their own small 
businesses to help them understand what it takes to be 
successful small business owners and how they put together a 
business plan and how they put together a finance plan and how 
they get capital to start a small business?
    Mr. Ortiz. Presently as far as DoL, our transition 
assistance, our employment workshop talks about the 
generalities of that. What we are doing in the task force, the 
DoD/VA task force that hopefully will be giving you information 
on some of those things, there are four areas that they are 
looking at also, education, entrepreneurship, employment 
obviously, and technical.
    So, yes, we are finally understanding that there are young 
men and women that come out that through the time that they 
have been in the service have actually gotten their degrees, 
have actually worked really hard or as an example our 
phenomenal mechanics and they want to open up a bike shop or a 
shop that would be able to do stuff like that. We have some 
great diesel mechanics who would really like to do that, 
especially for 18-wheelers and things of that nature.
    So, yes, now we understand the services have finally 
understood that there is a need for these young men and women 
to be able to have a track, if you will, along those same 
lines. The VOWAC basically tells us our mandatory piece is the 
employment workshop, the VA benefits, and, of course, the 
services giving us their information as far as making sure that 
that individual transitions out.
    The secondary piece to that is to have them have the 
capability of going back and finding out what their educational 
opportunities are, what entrepreneurial opportunities there are 
and things of that nature.
    So, yes, sir, we are actually looking at it. And the 
services have actually made the, how do you say, the needed 
move to try and make that happen because they are seeing the 
same thing, sir.
    Mr. Braley. I just have two quick questions about two of 
the programs you identified in your statement, one the 
veterans' job bank and the gold card. And I realize that the 
jobs bank bill was just signed into law November of last year.
    But are you getting any sense from people who are using 
that resource, and I am not talking about just visiting and 
checking it out, but actually using it and deriving some 
benefit from it in terms of whether it is meeting its stated 
objective or not?
    Mr. Ortiz. Actually, sir, last Thursday, I was in New 
Orleans with the National Association of State Workforce 
Agencies, NASWA, and I asked the same question. I said, hey, 
you know, we know how many people are actually downloading the 
gold card, and specifically for the gold card, sir, are 
downloading the gold card and they are looking at different 
aspects.
    I said have you all been receiving this. We had a lot of 
the states turn around and say yes, as a matter of fact, we 
have and, in fact, it is working really well.
    I cannot turn around and tell you, sir, the specifics on 
how many, but the anecdotal information that I got from the 
actual state workforce agency members as part of the NASWA 
Committee, they told me that it was being effective because 
they are able to talk to the person one on one and be able to 
kind of get that feeling of exactly what they need and how to 
guide them in the right direction. And their DVOPs and LVERs 
have been tremendous in that thing.
    The specific states, Texas was one of them. Connecticut 
told me that they are moving along real well. I was not sure of 
Indiana or Iowa or any of those, but I know that a letter, 
every one of them were aware of it and they actually are 
working it.
    So, you know, it appears anecdotally, sir, that the system 
is actually working and that kids are finally getting something 
out of it.
    As far as the job bank is concerned, I cannot tell you the 
results as how many have actually gotten jobs. But as far as 
visiting the site and working through it and everything else, 
we have gotten pretty good response, sir.
    Mr. Braley. Mr. Chairman, maybe with your permission, we 
could set a goal of a 6-month review and get an update on what 
has been happening and which states are sort of setting the 
curve on that so we can continue to push for results as well.
    And with that, I will yield back.
    Mr. Stutzman. Yes, I would agree to that as well.
    And I have no further questions at this time. I just want 
to thank you again, Mr. Ortiz, for being here and for your 
work. I know you have a big job to handle and we want to be 
here to help and make sure that our vets are getting the 
services that they need.
    So any further closing comments?
    [No response.]
    Mr. Stutzman. Okay. Well, with that, I ask unanimous 
consent that all Members have five legislative days in which to 
revise and extend their remarks on today's hearing. Hearing no 
objection, so ordered.
    Again, I just want to thank each of the witnesses for being 
with us today and I look forward to continuing this dialogue we 
have begun. And I realize that it is a tough job and this job 
is only going to get more challenging as the wars wind down 
thankfully. But we do want to address these problems as best as 
we can.
    So with that, this hearing is adjourned.
    [Whereupon, at 12:59 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                Prepared Statement of Chairman Stutzman
    Good morning.
    Welcome to the first Subcommittee on Economic Opportunity hearing 
of the second session. There is a good reason why I chose this as the 
first topic.
    Shortly after the end of the Vietnam War, the United States defense 
policy changed to transition the National Guard and Reserves from a 
strategic reserve to an operational reserve. There were several reasons 
for doing this ranging from the perception that a reliance on the 
Reserve Components would lessen the likelihood of military actions in 
the future to reducing the cost of our defense forces. Regardless of 
those reasons, members of the Guard and Reserves have borne a 
significant share of the combat since 9/11. Clearly, they are no longer 
``Weekend Warriors.''
    That also means that employers--especially small businesses--have 
experienced labor challenges not seen since World War II and by and 
large, have supported their employees. Unfortunately, active duty call-
ups, combined with a bad economy, have created historically high 
unemployment rates among the Guard and Reserves. Even more unfortunate, 
you will hear today that some employers have used what I believe are 
less-than-ethical tactics to terminate members of the Guard and 
Reserves.
    As the owner of a small business, I understand the pressures on 
employers that the loss of a critical employee creates. But in the end, 
the question I always ask is, who is making the greater sacrifice, the 
employer or the servicemember who is literally going in harm's way and 
that member's family who must cope with all the stresses of a 
deployment?
    You will also hear today from the National Association of 
Manufacturing about the over 600,000 manufacturing jobs going unfilled 
because of skill shortages. With that kind of information we must ask 
ourselves, what are we as a nation doing wrong?
    For example, taxpayers are providing a generous GI Bill education 
and training program and the Department of Education offers numerous 
Title 4 financial assistance programs. In many cases, the states are 
also offering generous education and training benefits to members of 
their state's National Guard as well as veterans in general. 
Additionally, the recently passed VOW to Hire Heroes Act focuses on 
renewing the skills of unemployed veterans between the ages of 35 and 
60 by providing up to a year of Montgomery GI Bill benefits. Veterans 
also have priority access to all Department of Labor Workforce 
Investment Act or WIA (WEE-A) programs. All of these education and 
benefit programs offer opportunities to acquire skills needed by 
today's employers. So where are we going wrong, where are the gaps and 
I look forward to some concrete ideas here today to help us. I would 
note that none of the government's witnesses have made any such 
suggestions in their written testimony.
    I am pleased to see that manufacturers are increasing their role as 
you will hear in Ms. De Rocco's testimony and I believe that increasing 
initiatives by the employer side of the equation is an area that offers 
significant leverage in developing and matching skills with job 
vacancies. In the end, it will likely be up to employers to take 
actions at the local level rather than moving jobs overseas. I know 
that many companies work with community colleges to develop the skills 
needed in their company and I suspect that expanding that model is an 
area we need to explore further.
    Before I yield to the Ranking Member, as everyone knows, the 
Transition Assistance Program is an integral part of transition. In 
fact, I believe that every one of today's witnesses mentions TAP in 
their written testimony. In preparing for this hearing, the staff asked 
the Administration for a briefing on the redesign of the Transition 
Assistance Program or TAP. Unfortunately, that briefing has been 
delayed pending release of a study done for the White House. While I 
commend the Administration for doing the study, delaying its release--
for whatever reason--does not help either the Congress or the 
Administration to get on with revitalizing an important program and I 
urge the White House to release the study.
    Once again, welcome and I now recognize the distinguished Ranking 
Member, Mr. Braley for his opening remarks.
    Thank you.

                                 <F-dash>
              Prepared Statement of Hon. Bruce L. Braley,
                       Ranking Democratic Member
    First, I would like to thank Major General Timothy Orr, The 
Adjutant General of the Iowa National Guard and Dick Rue, State Chair 
of Iowa ESGR for joining us to testify in this hearing today. I know 
they have both been hard at work trying to decrease unemployment among 
returning Iowa National Guard and Reserve members.
    In October, Chairman Stutzman and I traveled to Waterloo, Iowa, and 
Ft. Wayne, Indiana to hear first-hand about unemployment issues from 
veterans and Guard and Reserve members. One of the things we kept 
hearing was the need to help servicemembers translate their military 
skills to the civilian jobs they were seeking, as well as getting 
assistance in interview techniques.
    Over 600,000 members of the National Guard and Reserve have been 
mobilized since the attacks of September 11, 2001, and nearly 15,000 
Iowa National Guard members have served their country at home and 
across the world in that same time period. Just this past summer, 2,800 
Iowa National Guard members returned from a deployment to Afghanistan. 
This means that thousands of individuals volunteered to leave their 
jobs to serve their country, with the uncertainty of knowing what would 
be waiting for them once they returned.
    Coming home after fighting overseas is difficult enough, but 
veterans often struggle to find good-paying jobs after leaving the 
service. It is estimated that approximately one out of every four 
combat veterans from Iraq and Afghanistan are out of work. That's 
unacceptable. Fortunately, progress is being made. Because of the work 
of various organizations in Iowa, the unemployment rate for recently 
returned Iowa National Guard members has dropped considerably, from 
around 25 percent in August to around 10 percent today. And I expect 
that this rate will continue to drop because of their efforts.
    The uncertainty of knowing when a deployment will occur can affect 
employment. Our Reservists and Guardsmen are a pool of talented and 
dedicated individuals--men and women who have an education and real-
world employment experience. These warriors have full-time civilian 
jobs while they proudly serve on the weekends. They return from 
deployment to their civilian jobs, only to face the reality of being 
deployed once again, which can be emotionally draining for our troops 
and their families.
    According to the statements made during the field hearings in 
October, some National Guard members deemphasized their service to 
their country because of fears that employers would not want to hire 
them, knowing they could be deployed at any minute. They did not want 
to discourage prospective employers from hiring them. Although the 
Uniformed Services Employment and Reemployment Rights Act (USERRA) 
provides protections from employment discrimination based on military 
service, some Reserve members have lost their employment.
    It is our responsibility to create a culture where all American 
businesses recognize the important service of their employees who have 
answered the call to duty. Employers are vital to empowering employees 
who are members of the National Guard and Reserves. We want all of our 
veterans to succeed and we want their employers to do well also. 
Employers' support and encouragement allow these warriors to serve 
their country without the concern of losing their job or being 
unemployed when they return home.
    Men and women who've put their lives on the line for our country 
deserve to have every opportunity when they return home. This hearing 
will help us find better ways to open new doors for veterans, 
particularly Iowa National Guard and Reserve members who have recently 
returned from service in Iraq and Afghanistan.

                                 <F-dash>
               Prepared Statement of Theodore L. Daywalt
                           EXECUTIVE SUMMARY
    Despite the impression from press reports, the employment situation 
of veterans as a group has always been positive. In fact, the 
unemployment rate for ALL veterans has always been lower than 
nonveterans and lower than the national unemployment rate.
    While the national unemployment rate for all veterans was only 7.7 
percent (CPS) in December 2011, there is an unemployment issue for 
young veterans, but it is not as many think because the young veterans 
lack skills or served in the current wars. The unemployment rate for 
young veterans had historically been comparable to the national 
unemployment rate until 2007, at which time the 18 to 24 year old 
veteran unemployment rate and to some degree the 25 to 29 year old 
unemployment rate started rising rapidly. The rise in the young veteran 
unemployment rate is a direct result of a DoD call up policy 
implemented in January 2007. The call up policy caused employers to not 
want to hire members of the National Guard which led to the high 
unemployment rate in young veterans.
    The information and data in this testimony will demonstrate the 
high unemployment rate of young veterans is a direct result of their 
participation in the National Guard and Reserve and the current call up 
policy. Due to the constant activation of the National Guard, upwards 
of 65 percent of employers will not now hire as a new employee anyone 
who is an active member of the National Guard. The result is the 
exceptionally high unemployment rate of young veterans. The 
unemployment rate of 18 to 24 year old veterans in November 2011 was 
37.9 percent, comprising 95,000 veterans and fell to 31.0 percent in 
December, comprising 74,000 veterans. While BLS statistics do not 
distinguish between veterans and active members of the National Guard, 
the data presented in this report leads me to believe the bulk of these 
unemployed veterans are in the National Guard.
    If a veteran has totally separated from the military, retired, or 
is a wounded warrior, they are for the most part finding employment. 
This is not to say some are not having difficulties in this rough 
economy. One can always find an exception. But if a veteran remains 
active in the National Guard, they are having a difficult time finding 
meaningful employment due to the constant call ups and deployment 
schedules.
    Young veteran unemployment in the National Guard will become worse 
as they try to compete against veterans who will be downsized from the 
active duty forces. Young veteran unemployment in the National Guard 
could reach 50 percent if there is not a change in policy.
    Veterans do very well in the following disciplines: information 
technology, project management, consulting, sales, linguists, 
logistics, transportation, human resources, education, construction, 
manufacturing, engineering, finance, banking, health care, senior 
executives and expatriates.
                           WRITTEN TESTIMONY
    Good morning, Chairman, members and staff of the Subcommittee on 
Economic Opportunity of the House Committee on Veterans Affairs (HVAC).
    I am very pleased the HVAC is addressing the issue of National 
Guard unemployment. The National Guard unemployment problem is 
intertwined with the Federal Reserve forces unemployment.
    VetJobs (www.vetjobs.com) has a unique vantage point on these 
discussions as by the nature of our business over the last 13 years, 
VetJobs deals with veterans and their family members on a daily basis 
who are pursuing employment. We deal with all veterans, including 
Officer and Enlisted, Active Duty, Transitioning Military, Reservists, 
Veterans and Retirees of the Air Force, Army, Coast Guard, Marine 
Corps, Merchant Marine, National Guard, Navy, NOAA and Public Health 
Service, DoD civilians and their family members. VetJobs has been 
fortunate in being successful in assisting them in finding employment 
for 13 years.
    Our interest in the National Guard and Reserve became heightened 
when the 20 to 24 year old young veteran unemployment rate doubled when 
it went from 10.4 percent in 2006 to 22.3 percent in 2007 following the 
introduction of the current call up policy in January 2007. That 
increase was the initial warning bell that there would be significant 
increases in employment problems for members of the National Guard and 
Reserve directly related to the change in the call up policy.
    In order to solve a problem one must effectively analyze, define 
and identify the problem and its causes. If one does not understand the 
sources of the problem, well-meaning solutions that are chosen will not 
work, or worse, will not address the problem at all.
    Working on a solution to the National Guard and Reserve 
unemployment problem is important. I am convinced that there are those 
at DoD who were aware this problem existed, but for various 
bureaucratic and political reasons have been trying to pretend the 
issue does not exist and have been kicking the can down the road for 
someone else to deal with in the future. That might be good for a 
bureaucrat's career, but the young members of the National Guard and 
Reserve who have families to support should be given better treatment. 
The component members are being made to suffer from bureaucratic 
policies, and that is not a fair thing to do to the very people who 
have been fighting for our country and freedoms.
    For example, in a discussion with a former head of a Reserve force, 
I was told that not one of his Reservists was having a problem finding 
a job. He was parroting policy, but it was a flawed policy because at 
the time many Reservists were having problems finding employment due to 
the call up policy. The same issue affects the National Guard.
    What follows is a discussion of my observations of the National 
Guard and Reserve unemployment issue with an emphasis on the National 
Guard. My observations are as a former drilling Navy Reservist and as a 
businessman managing the leading military related internet employment 
site that interacts with state and Federal agencies, corporations, 
nonprofit organizations, and businesses seeking to hire transitioning 
military, veterans, National Guard, Reservists and their family 
members.
    Due to the myths and misunderstandings in the press regarding 
veteran unemployment, I present the following documentation about what 
is actually happening and why the National Guard in particular is where 
the true veteran unemployment problem exists.
    Following the discussion I offer potential solutions for 
consideration. Having studied this issue for nearly a decade, I have 
found there is no silver bullet that will solve the National Guard 
unemployment problem. But a combination of policy changes and utilizing 
existing public and private sector resources will go a long way towards 
assisting those members of the National Guard who need help.
    While this testimony is concentrating on the National Guard, the 
Federal Reserve faces many of the same issues.
    I want to emphasize from the outset that I am very supportive of an 
operational National Guard and Reserve. In the later years of my time 
as a drilling Navy Reservist in the Naval Reserve Intelligence Program 
we stressed making our Reserve Intelligence units operational, which 
proved very beneficial during the first Gulf War. Having an operational 
National Guard and Reserve makes the United States stronger on the 
national stage. But the use of the National Guard and Reserve needs to 
be done in such a way as to still let the component member maintain a 
continuum of civilian employment.

                                 <F-dash>
                  Prepared Statement of Emily DeRocco
    Chairman Stutzman, Ranking Member Braley and Members of the 
Subcommittee, thank you for the opportunity to testify on behalf of The 
Manufacturing Institute at this hearing on Lowering the Rate of 
Unemployment for the National Guard.
    My name is Emily DeRocco, and I am the President of The 
Manufacturing Institute. We are the non-profit affiliate of the 
National Association of Manufacturers (NAM), and our mission is to 
support the Nation's manufacturers through solutions and services 
focused on education, workforce development and innovation 
acceleration.
    Over the past few months, manufacturing has enjoyed something of a 
national spotlight. Organizations all across Washington, from the White 
House and Congress to major think tanks and government agencies, have 
been discussing the manufacturing industry and what America must do to 
maintain and grow its manufacturing base.
    Manufacturing is certainly deserving of the recognition it is now 
receiving because it is an industry that is truly vital to our economic 
security. Manufacturing is the leader in generating wealth from 
overseas, contributing 57 percent of the total value of U.S. exports. 
Of course, manufacturing also plays a vital role in our national 
security, building the equipment, machines, and armor that equip and 
protect our servicemen and women.
    The American public understands how important manufacturing is to 
our country. Each year we conduct a public perception survey to 
understand how Americans feel about our industry. Not only do they 
believe that manufacturing is critical to our economic and national 
security, but when given a choice of selecting any industry to create 
1,000 jobs in their backyard, the number one choice is manufacturing.
    But while manufacturing enjoys the support of policymakers and the 
public, manufacturing companies face a serious challenge--they are 
unable to find workers who are qualified to step in and contribute to 
their operations. In a survey that the Institute just completed, over 
80 percent of manufacturers reported a moderate-to-serious shortage in 
skilled production workers. Eighty percent. Nearly 75 percent of 
manufacturers say that this shortage has negatively impacted their 
ability to expand, costing us an incredible number of jobs at a time 
when jobs are desperately needed. Perhaps most alarming though is that, 
because much of the current workforce is quickly approaching 
retirement, over two-thirds of manufacturers actually expect the 
situation to get worse in the next couple of years.
    This has led to a situation where 5 percent of all jobs in 
manufacturing are unfilled because companies cannot find workers with 
the right skills. In real terms, that is 600,000 open jobs today in 
manufacturing.
    Those are some frightening results and make clear the threat that a 
lack of a skilled workforce poses to manufacturers.
    It is widely accepted that the skills obtained in the military, 
from personal effectiveness attributes such as integrity and 
professionalism to more technically defined skills such as process 
design and development, are in abundance among separating military 
personnel. However it has traditionally been a challenge to directly 
align the skills developed during military service to the job codes in 
the private sector. In addition, the services offered through the 
Transition Assistance Program vary base by base . . . command by 
command. Traditionally the military has focused on retaining members, 
not helping them transition out.
    So we have two problems . . . The Transitional Assistance Program 
is inconsistent and often outdated in its attempt to help separating 
military and manufacturers who want access to a highly skilled labor 
force.
    Fortunately, we now have a new system that will help with both of 
these challenges. In partnership with a company called Futures, The 
Manufacturing Institute has created an online tool that we're calling 
the U.S. Manufacturing Pipeline. It will provide the information for 
separating military to learn about careers available in advanced 
manufacturing, locate the schools and programs that teach additional 
applicable skills, and find available jobs at manufacturers in every 
region of the country.
    And for manufacturers, it will be the place to find the skilled 
workers they need to close the skills gap and expand their operations. 
Pipeline can allow individual companies to send a message to any 
individual that has, for example, welding skills, and lives within a 
certain distance of their facility and invite them to apply for an open 
position. This really is a powerful tool that can change the way 
manufacturers find and recruit talent, facilitating access to 
separating military.
    Though the Pipeline platform has only been in operation for a short 
time, and no significant marketing campaign has occurred, over 35,000 
servicemen and women are now using the site for their career and 
employment searches. This is entirely through peer-to-peer and viral 
marketing and demonstrates the quality of the product. And this number 
is set to increase dramatically.
    The Defense Department is preparing a major advertising campaign to 
reach over 1 million Armed Forces Reserve and National Guard personnel 
and encourage them to sign up with Pipeline. By demonstrating success 
with this group of servicemen and women, we hope that, through our 
partnership with Futures, we can engage with the Transition Assistance 
Programs for each of the services to reach all active duty personnel 
who are nearing their transition date, offering manufacturing jobs as 
an immediate career opportunity for all men and women who have served 
in uniform.
    Finally, our longer term strategy for the U.S. Manufacturing 
Pipeline includes engaging with community colleges across the country 
that offer programs that provide national industry skill 
certifications. This will allow transitioning military personnel to 
easily find any additional education and training needed to work in 
manufacturing.
    I'm certainly excited about this and believe we are very close to a 
National Talent Solution for manufacturing. Our manufacturers need the 
skilled workforce to compete. Our separating military need good jobs. 
And our country needs manufacturing for this to be another great 
American century.
    Thank you for the opportunity to join you today and I'm pleased to 
take any questions.

                                 <F-dash>
                 Prepared Statement of Terry M. Haston
    Chairman Stutzman, Ranking Member Braley, and distinguished Members 
of the Subcommittee; I am honored to appear before you today on behalf 
of the more than 14,000 men and women serving in the Tennessee Army and 
Air National Guard, and I would like to begin by expressing my sincere 
appreciation for the outstanding support of this Subcommittee.
    Since the tragic attacks on our homeland on September 11, 2001, 
more than 27,000 brave Tennessee National Guard Soldiers and Airmen 
have deployed both at home and abroad protecting the freedoms that we 
all enjoy.

Tennessee National Guard Unemployment Statistics

    These men and women of the Volunteer State have answered the call 
of this Nation without hesitation or reservation. Most return home 
after defending this great nation and resume the civilian lifestyle 
they left, renewing relationships with family and friends and returning 
to their civilian workplace; but all too often many return to an 
uncertain future. The issue of Soldiers and Airmen facing unemployment 
in the civilian sector is paramount in our concerns for the well-being 
of our troops.
    In Tennessee, about 20-25 percent of our National Guard strength is 
either unemployed or under employed, with about 3.5 percent of those 
identified as full-time students. This compares to an 8.7 percent 
unemployment rate for Tennessee as a whole. We owe these volunteers our 
very best efforts in helping them gain employment. But to effectively 
combat this problem, we have to know the enemy. We have to look beyond 
the reported numbers that may, in fact, demonstrate a ``false 
positive''. To understand the magnitude of the problem, we have to 
determine an accurate number of Guard members who are actively seeking 
employment. We also have to determine if their deployment caused them 
to be unemployed, or were they unemployed before deploying. In 
Tennessee, we continually encourage the unit commanders and leadership 
to identify these individuals in order to assist them however we can. 
Simply, we must know what the true objectives are before we can attack 
them.

Tennessee National Guard Initiatives and Transition Assistance

    In Tennessee, we are striving to identify those true objectives. In 
conjunction with the Employer Support of the Guard and Reserve, we are 
conducting Employment Assistance Workshops about once each month. This 
3-day event provides one-on-one career counseling addressing issues 
such as writing an effective resume, guidance in preparing for, and how 
to conduct an interview. On the final day, employers, such as FEDEX, 
Verizon Wireless, Hospital Corporation of America, Dollar General, AT&T 
and a multitude of other employers are on hand to interview prospective 
employees. Hopefully, through this process the employers will find and 
hire a quality Guard member that brings a great deal to the table, 
offering that employer a motivated, disciplined, drug-free asset with 
the training and potential for leadership within their company.
    We have sponsored or supported 18 Job Fairs in the past 17 months 
with 415 participants. Of those participants, 111 have responded to 
inquiry, and 37 percent of the respondents have found employment.
    This program, along with our Yellow Ribbon initiatives, 
unemployment counseling at Soldier out-processing upon their return, 
and our outstanding relationship with the Tennessee Department of Labor 
are all positive steps in reducing the number of unemployed Guard 
members in Tennessee.

Closing Remarks

    I've often heard it said that the Soldiers and Airmen of our 
National Guard are the best America has to offer. These men and women 
are willing to put their lives on hold, and without hesitation . . . 
without reservation, walk away from family, community, and their 
civilian occupation to defend and protect this great nation. We owe 
them no less than our very best.
    Thank you for allowing me to address this Subcommittee, and I stand 
ready to answer any questions you may have.

                                 <F-dash>
                Prepared Statement of Margaret Washburn
    Chairman Stutzman and honorable Members of the Subcommittee; on 
behalf of MG R. Martin Umbarger, The Adjutant General of Indiana, I am 
honored to appear before you today to represent our 14,314 Army and Air 
National Guard Servicemembers. I would also like to begin by expressing 
my sincere appreciation to the Subcommittee for its tremendous support 
over the past several years, and for your concern with the well-being 
of the outstanding men and women serving in our Nation's National 
Guard.

Indiana National Guard Unemployment Information/Statistics

    Indiana also faces the challenge of unemployment and 
underemployment for our Guardsmen. Indiana has deployed over 17,693 
servicemembers since 9/11. Based on the Department of Defense Civilian 
Employment Information database, it is estimated that nationally 20 
percent of returning National Guard Soldiers and Airmen are unemployed. 
The current rate of unemployed Indiana National Guard members is 
roughly 23 percent, which is over twice our current state rate of 9 
percent unemployment. Thus, we estimate roughly 3,300 Indiana Guardsmen 
and women are unemployed.
    As we conduct more detailed analysis, we find these numbers 
slightly skewed by the number of servicemembers just completing high 
school or currently enrolled in higher education. Furthermore, in 
Indiana, we also chose to track and assist unemployed spouses, when 
identified, believing that getting at least one of the family members 
employed significantly improves overall servicemember household well 
being and readiness.

Indiana National Guard Initiatives

    In 2009, MG Umbarger created the Indiana National Guard Employment 
Coordination Program. The objectives of this program are to identify, 
track, and reduce unemployment within the Indiana National Guard. These 
objectives are accomplished through working directly with each 
unemployed servicemember to increase their marketability, collaborate 
with Indiana employers for the hiring of our members, and quality 
assurance checks with these businesses on the servicemembers they have 
already hired. Direct hands on assistance includes Resume writing, 
active Job Search training, Interview Skills, and Job Preparedness 
training. Developing a servicemember's marketability includes 
education, skills training, Vocational rehabilitation, and even near 
term financial assistance for such things as reliable transportation to 
their new employment.
    Our Employment Coordination Program works individually with each 
identified servicemember throughout all phases of the deployment cycle. 
We actually define a servicemember's needs while the member is still in 
theater and are present at the demobilization station when the 
servicemember returns so we may initiate actions required to improve 
their marketability or educational needs. We have now placed over 1000 
servicemembers and spouses in jobs. Some of these jobs were Active Duty 
Operational Support (ADOS), temporary positions, and a combination of 
education with part time employment. The Employment Coordination 
Program has also assisted in completion of 2443 resumes, has 484 jobs 
openings currently posted, and submitted 2050 job applications.
    Another initiative is the Indiana National Guard--Business 
Partnership. We currently have over 125 businesses involved with this 
partnership. This partnership includes a reciprocal support process 
designed to provide both the employer and employee with resources and 
assets to complete successful hiring and sustained job performance. We 
have placed 172 servicemembers in jobs within these 125 businesses.
    Another initiative is MG Umbarger's Executive Business Meetings. 
These monthly meetings give key business and community leaders a 
greater understanding of the National Guard experience and what our 
servicemembers have to offer the state workforce. These leaders are 
encouraged to consider a veteran for any open position, especially 
those returning from deployment and those negatively impacted due to 
economic challenges in their local communities.
    Our Adjutant General also created a J9 Civil-Military Affairs 
Directorate. This Directorate brings all support programs including 
Family Programs, Yellow Ribbon Reintegration, Employer Support of the 
Guard and Reserve, Transition Assistance Advisors, and Employment 
Coordination Program under one supervisor. It affords these programs a 
level of ``unity of effort'' that did not exist when they were working 
independently. The J9 Directorate also serves as the community outreach 
platform creating new relationships with community resources and 
developing increased servicemember and family access to these 
resources.
    The Indiana National Guard also participates in all Employer 
Support of the Guard and Reserve activities, the Job Connection 
Education Program (JCEP), job fairs, town hall meetings, network and 
social media programs.

Needs Assessment

    Funding and Manning are needed to allow these programs to maintain 
success. We believe long term job placement is potentially greater with 
our holistic approach to the employment process. Thus there is greater 
value to the National Guard workforce by including education, skills 
training, and improved marketability over just sending in a resume.

Closing Remarks

    Our National Guardsmen have proven themselves to be ready, 
reliable, and accessible here at home and worldwide. Many of them have 
answered the call to duty and spent multiple deployments away from 
their families and employers. The Indiana National Guard is working 
hard to insure these heroes return to a lifestyle and family wellness 
deserving of the sacrifices they have made. The strength of the Indiana 
National Guard rests in its citizen soldiers and airmen. The strength 
of these citizen soldiers and airmen rests in their employment and 
productivity to their communities. Indiana employers are military and 
veteran friendly and many desire to hire our talented, experienced, and 
reliable servicemembers. We need to help make that connection possible. 
Once again, I thank you for recognizing this issue and holding this 
hearing. I look forward to responding to your questions.

                                 <F-dash>
                  Prepared Statement of Timothy E. Orr
Opening Remarks

    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee:
    It's a great privilege to be here today representing the 9,400 
Soldiers and Airmen of the Iowa National Guard in this important 
discussion to maximize employment opportunities for National Guard 
members. Thank you for the opportunity to testify on this topic and 
provide perspective on the State of Iowa's initiatives to address this 
important issue.

The Iowa Experience

    First let me begin by saying that Iowa is unique in many ways. 
Thankfully, our state and region currently have lower unemployment 
rates than those seen in other parts of the country. The employers in 
our state are military and veteran friendly and we enjoy incredible 
support from our communities. The level of cooperation between our 
employment and education partners, including private sector job 
creators, Employer Support of the Guard and Reserve (ESGR), Iowa Work 
Force Development, Job Connection Education Program, the Iowa 
Department of Education, community colleges, and the Society of Human 
Resource Managers is outstanding. In addition, Governor Branstad has 
provided key leadership to drive employment opportunities for our 
National Guard members.
    While we remain focused on those with employment challenges, we are 
fortunate to have seen tremendous improvement in overall employment 
numbers for those who have returned from the state's largest deployment 
since World War II. We currently estimate, based on data collected 
during our deployment outprocessing and reintegration events, that the 
unemployment rate of our returning warriors fell from a high of 25 
percent in August 2011 to a current rate of just under 10 percent. 
Though we still have work to do in this area, we are very happy to see 
this remarkable improvement among our returning warriors.

Working Together

    I truly believe the success we've seen in this area is a result of 
steps we took long before the 2,800 members of our brigade combat team 
deployed to Afghanistan. Because of its size and scope, we knew this 
deployment would have a significant effect on our state including our 
families, our employers and our communities. Through a series of 
``Lunch & Learn'' engagements, townhall meetings, predeployment 
briefings and other public engagements we initiated an information 
awareness campaign to build support and deepen understanding between 
servicemembers and employers regarding the Uniformed Services 
Employment and Reemployment Act (USERRA). In conjunction with ESGR, we 
initiated a series of employer bosslifts, bringing employers to our 
Annual Training and post deployment training sites to witness firsthand 
the important and complex work their Citizen-Soldiers were doing in 
preparation to deploy overseas.
    From the beginning, we knew we had to work together to minimize the 
disruption and confusion caused by such a significant deployment on our 
state's employers. I invited Dick Rue, our state ESGR Chair, to stand 
with me to help answer questions about the rights and responsibilities 
of both employers and their Citizen-Soldiers during our press 
conference announcing the deployment. We often talk about the service 
and sacrifice of our servicemembers and their families. In Iowa, we 
know employers also sacrifice when their Citizen-Soldiers deploy and we 
work hard to acknowledge that through ESGR engagements and employer 
recognition events.

Tool Box Solutions

    Though this information campaign was important we knew it would not 
be enough based on what other states experienced following large 
deployments. Opening up our ``Tool Box'' we started looking at ESGR, 
National Guard Bureau and other state and Federal employment programs 
designed to assist returning warriors. One of the most important steps 
we took was to nest our employment and education counselors in order to 
emphasize these areas during the demobilization process. Working 
together, they counseled returning warriors on employment and education 
programs and benefits available to assist with their transition from 
active duty. Thanks to this integration, an additional 900 of our 
returning warriors indicated their intent to enroll in school than were 
students when the deployment began. We screened members as they out 
processed and attended reintegration events to identify those 
struggling with employment issues and link them up with assistance 
through our Jobs Connection Education Program and online job search and 
application programs.
    Working with our employment partners, we developed a one-day course 
designed to assist our unemployed or underemployed warriors. We help 
them write resumes and cover letters that translate their military 
experience into meaningful civilian skills. We work on interviewing 
techniques and skills in order to prepare them for job fairs and 
interviews.
    Through our partnerships with Iowa Workforce Development, we placed 
computers kiosks in our armories to assist our warriors with finding 
and applying for job openings. Last October we supported, with other 
state and Federal agencies, a Veterans' job fair and began posting job 
openings, targeting veterans on Web sites like the National Guard's 
Jobs Connection Education Program and Employer Partnership.
    The Iowa Department of Education and the U.S. Department of 
Veterans Affairs have teamed up to develop a program designed to assist 
veterans and their dependents by allowing them to learn a trade or 
skill through participation in apprenticeship or on-the-job training 
rather than by attending academic classes. Veterans and servicemembers 
eligible for the GI Bill may use these benefits for apprenticeship or 
on-the-job training. This program allows a military veteran or 
servicemember to enter into a training contract for a specific period 
of time with an employer or union and then after the training period, 
the trainee is given job certification or journeyman status. In most 
cases, the veteran trainee receives a salary from the employer or union 
while participating in the program. As they progress through the 
program and their skill level increases, so does their salary. The U.S. 
Department of Veterans Affairs (VA) provides monthly GI Bill payments 
for veterans or servicemembers in approved programs. This is another 
great example of the team approach we have taken in Iowa to assist our 
returning warriors.
    While we still have a lot to do to ensure employment opportunities 
for all of our returning warriors, we have made significant progress. 
We will continue to work to enhance our tool kit to help our warriors 
like working with our state legislature to assist with legislation that 
better aligns state licensure requirements with military specialty 
skills and working with our employment and private sector partners to 
continue to identify job opportunities for our warriors.

Closing Remarks

    Our Iowa National Guard Soldiers and Airmen continue to be 
``Mission Focused and Warrior Ready''. Over 15,000 Iowa National Guard 
members have served and sacrificed in support of ongoing contingency 
operations here at home and across the world, many on multiple 
occasions. They, along with their families and employers, have borne a 
heavy burden to help ensure our Nation's safety and security. They did 
so willingly and have asked little in return. Working together, at 
every level, we have a responsibility to assist those struggling with 
unemployment issues related to their military service. I greatly 
appreciate the Subcommittee's work on this issue and I look forward to 
your questions on our efforts to help our returning warriors.

                                 <F-dash>
                  Prepared Statement of Richard A. Rue
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee:
    It is a privilege to be here today representing the Iowa ESGR team 
in this important discussion to maximize employment opportunities for 
members of the Guard and Reserve. Thank you for the opportunity to 
testify on this topic and provide the Iowa ESGR perspective and 
initiatives to address this important issue.
    The primary mission of Employer Support of the Guard and Reserves 
(ESGR) is to promote a culture in which all American employers support 
and value the military service of their employees. We accomplish this 
through advocating relevant initiatives, recognizing outstanding 
support, increasing awareness of the law (USERRA) with our employer and 
military outreach programs and resolving conflicts through mediation 
when requested. Under our advocate role, in FY 11 ESGR educated, 
provided consultation to, and assisted with reemployment challenges for 
employers, National Guard members, and Reservists. The Employment 
Initiative Program (EIP) was added to our mission in the fall of 2010 
and is designed to facilitate employment opportunities for unemployed 
and underemployed servicemembers and their spouses. This program is an 
outgrowth of our ESGR Employer and Military Outreach Programs and 
complementary to the current economic realities in our state and 
aligned with our President's New Veterans Employment Initiative.
    The essence of my written testimony is that in Iowa, we feel that 
we have made positive advancements toward successfully lowering the 
rate of unemployment of our National Guard. This has been accomplished 
by effective planning to ensure that the multiple resources in 
existence to support the National Guard and employment of National 
Guard and Reserve members have worked in harmony towards this common 
purpose. It is easy for varying organizations to work independently and 
thus diminish the opportunity for success in achieving this important 
common goal. As the result of our state National Guard leadership, 
Major General Orr and his command staff, from the earliest public 
notification of pending deployment all related resource partners worked 
together to ensure that planning, execution and follow-up was in place 
to support the needs of the 2nd Brigade Combat Team.
    My written testimony outlines in more detail the support, resources 
and access that the members of the Iowa ESGR volunteer team received 
during pre-mobilization, during deployment and during post-mobilization 
up to and including the present. The key element of our ability to 
achieve success has been communication and cooperation between and 
among the multiple resource partners (the Iowa National Guard, Iowa 
ESGR and Iowa Employers) and our support organizations (Iowa Workforce 
Development, DOL-VETS and Job Connection Education Program (JCEP)). As 
per my written testimony, this cooperation allowed for hands-on 
personal engagement by the Iowa ESGR team with soldiers for both 
education and support purposes. Enhanced communications and greater 
efficiencies across agencies yielded Employment Assistance Training 
targeting approximately 400 self-identified unemployed servicemembers 
from the 2nd Brigade Combat Team. Information regarding upcoming 
employment events is regularly emailed to these unemployed individuals, 
the command and staff of all Iowa National Guard and Reserve units, all 
Guard and Reserve members returning from deployments, and Iowa ESGR's 
military outreach volunteers. Additionally, the support received by all 
the organizations I just mentioned was effectively channeled towards 
Iowa employers through the pre, during and post mobilization time frame 
via multiple events and touch points.
    Now, with the Employment Initiative Program, our associated 
partnerships within the state and the continued support of the Iowa 
National Guard leadership, Iowa ESGR is well prepared to continue our 
history of assisting servicemembers and employers to connect more 
effectively than ever before.

Iowa ESGR and our Partners

    The primary mission of Employer Support of the Guard and Reserves 
(ESGR) is to promote a culture in which all American employers support 
and value the military service of their employees. We accomplish this 
through advocating relevant initiatives, recognizing outstanding 
support, increasing awareness of the law (USERRA) with our employer and 
military outreach programs and resolving conflicts through mediation 
when requested. Under our advocate role, in FY 11 ESGR educated, 
provided consultation to, and assisted with reemployment challenges for 
employers, National Guard members, and Reservists. The Employment 
Initiative Program (EIP) was added to our mission in the fall of 2010 
and is designed to facilitate employment opportunities for unemployed 
and underemployed servicemembers and their spouses. This program is an 
outgrowth of our ESGR Employer and Military Outreach Programs and 
complementary to the current economic realities in our state and 
aligned with our President's New Veterans Employment Initiative.
    I will focus my comments of the Iowa ESGR support directed 
primarily towards the Iowa Army National Guard's 2nd Brigade Combat 
Team's recent deployment and return to Iowa in three parts: Pre-
mobilization, mobilization, and post mobilization.
    Pre-mobilizaton: Prior to the 2nd Brigade Combat Team (2BCT) 
leaving the state the National Guard provided work space for our staff 
to set up computer stations during all pre-mobilization briefing 
events. ESGR was given the opportunity to partner with the Department 
of Labor VETS providing a USERRA and ESGR briefing to all 
servicemembers to ensure that they were aware of their rights and 
responsibilities with regard to employment and re-employment. 
Additionally, the computer work stations provided every soldier the 
opportunity to update their Civilian Employment Information (CEI) with 
ESGR staff there to assist with the sometimes difficult navigation of 
the Web site; this ensured that we, Iowa ESGR, had the most current 
possible information with regard to our employer communication focus. 
The National Guard made this station a requirement to ensure that this 
DoD requirement was accurately completed prior to their deployment. We 
believe the approach to this data collection process greatly 
contributed to improved accuracy of the pre-mobilization information 
regarding employment status.
    In an effort to be proactive, ESGR requested the CEI data 
information ``by unit'' to better determine the number of soldiers that 
were not employed and also identify those that were students. As the 2 
BCT prepared for deployment, the Iowa economy continued in an economic 
downturn and there was a National emphasis on the unemployment status 
of our troops. The CEI report from December 2010 showed that 630 
soldiers considered themselves ``not employed'' and 267 as 
``students''. With these numbers in mind, Iowa ESGR and the Iowa 
National Guard began to jointly discuss and develop an appropriate plan 
to assist these members upon their return. Proactive planning was our 
plan for success.
    Mobilization: Iowa ESGR has hosted regular employer outreach events 
statewide for several years; however during mobilization, with the 
current emphasis on employment needs of our Reserve Component members, 
these events were revised to emphasize re-employment rights and 
employment opportunities. Iowa ESGR partnered with DOL-VETS on the 
planning and facilitation of several events with the primary focus 
around educating employers on USERRA and to provide awareness of 
resources like ESGR and DOL-VETS, which are available to employers and 
not just for the benefit of servicemembers. Additionally, ESGR provided 
an overview of the unemployment outlook for our returning National 
Guardsmen and encouraged employers to actively hire these qualified 
individuals upon their return. Once engaged, employers began sending 
their job opportunities to ESGR and several employers provided 
volunteer H.R. representatives for the Employment Assistance Training 
(EAT) events that Iowa ESGR subsequently conducted in coordination with 
DOL-VETS and Iowa Workforce Development.
    Post-mobilization: In July 2011 the Iowa ESGR staff, as requested 
by the Iowa National Guard, traveled to Fort McCoy, Wisconsin as the 2 
BCT transitioned from their overseas deployment back to the United 
States. The purpose of ESGR's presence was to provide a refresher 
briefing to all troops on USERRA as well as to facilitate the 
collection of survey data regarding employment status. Of particular 
interest was the unemployment and student status change's that occurred 
during the deployment. ESGR and the Iowa National Guard partnered 
together in developing a survey to capture up-to-date information on 
the 2 BCT return. ESGR collected, tabulated and presented the survey 
results to the Iowa Guard Command.
    During the 90-day post mobilization events, the Iowa National Guard 
again provided work space to us and required all troops to visit the 
ESGR station where they updated the Civilian Employment Information 
(CEI) data previously collected. It was clear upon review of the 
collection results that our Brigade returnees had success finding jobs 
within their communities. Statistics have not been gathered from other 
elements of the Iowa National Guard or other service branches in the 
state, leaving a large portion of the Guard and Reserves population 
with an unknown employment status at this time.
    The Employment Assistance Training (EAT) was created through a 
partnership with the Iowa ESGR, DOL-VETS, and Iowa Workforce 
Development as a one day training event. These workshops were designed 
to teach job search skills to job seekers. Topics included the 
Transition Assistance Program (TAP), resume writing, job interview 
skills training, and online job search techniques. Additionally, 
civilian human resource representatives volunteered to provide 
constructive critiques on resumes and provided practice interviews for 
participants with immediate feedback of their interview skills. The 
Society of Human Resource Managers (SHRM) and the Employers Council of 
Iowa supported the training events by providing many of the H.R. 
volunteers. The Iowa National Guard and Reserves also supported this 
effort by ensuring that their members were aware of the program and 
encouraged their participation. Since September 2011, ESGR and Iowa 
Workforce Development have offered seven Employment Assistance Training 
events in communities identified as having the highest number of 
unemployed Guard members. These locations were selected based on the 
survey results acquired in July during soldier out-processing at Ft. 
McCoy, WI. Unfortunately only three of the seven events took place, as 
the remaining 4 were canceled due to low RSVP numbers. Individuals 
interested in attending the cancelled sessions were given the option to 
schedule individual sessions with the local Veterans Representatives at 
Iowa Workforce Development. One possible cause of the low participation 
may be scheduling the employment events too soon after their return 
home. After deployment, these soldiers were not in a duty status and 
may have simply wanted a break from the military or had made a decision 
to enroll in college or other skilled trade courses. They may have also 
have just felt that they were not ready to think about finding 
employment while decompressing after a long deployment.
    Iowa ESGR is currently working with Iowa National Guard and Reserve 
units to promote job training events and job fair opportunities 
throughout the state. ESGR volunteers continue to brief Guard and 
Reserve members and their families regarding job search opportunities, 
training events and USERRA during Yellow Ribbon post-mobilization 
events (reintegration briefings and activities) and during regular unit 
annual briefings as part of our Military Outreach program. Information 
regarding upcoming employment events is regularly emailed to all of the 
400 unemployed individuals currently identified. We also ensure that 
the employment event information is disseminated throughout the command 
and staff of all Iowa National Guard and Reserve units, to all Guard 
and Reserve members returning from deployments, and to all of our ESGR 
military outreach volunteers who regularly visit all units throughout 
the state.
    When contacted by Guardsmen or Reservists regarding employment 
opportunities, ESGR staff regularly refers individuals to the Employer 
Partnership of the Armed Forces Web site, Yellow Ribbon's Hero 2 Hired 
Web site, and local employment coaches who offer free services to 
members of the Reserve Components and Veterans. Additionally, Iowa ESGR 
developed and maintains a strong relationship with the Iowa Workforce 
Development and the Job Connections Education Program (JCEP) staff and 
regularly refers job seekers to their resources.

Closing Remarks

    ESGR, within the state of Iowa and throughout the Nation, has a 
long and successful history of helping National Guard and Reserve 
Servicemembers and their employers to better understand their rights 
and responsibilities under the Uniform Services Employment and 
Reemployment Rights Act (USERRA). Our Iowa National Guard and Reserve 
commands have demonstrated tremendous support for successful conduct of 
our mission and I wish to publically thank them, as it takes a team to 
win and they have certainly been team players with Iowa ESGR and all 
supporting agencies within our state. Now, with the Employment 
Initiative Program and associated partnerships, we are well prepared to 
continue our history of assisting servicemembers and employers to 
connect more effectively than ever before.

                                 <F-dash>
                 Prepared Statement of Ronald G. Young
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Committee, thank you for your invitation to participate in this hearing 
and share what we in Reserve Affairs have been doing in support of RC 
servicemembers, their families and their employers. My full testimony, 
submitted for the record, covers four major areas:
    First, the latest statistics on the troubling rate of unemployment 
among Reserve Component servicemembers. The Bureau of Labor Statistics 
report that the December 2011 unemployment rate among all Post-9/11 
veterans is at 13.1 percent and the most recent Status of Forces survey 
(January 2011), junior enlisted servicemembers in the Reserve 
Components self-reported their unemployment rate at 23 percent. With 
very limited data on the unemployment rates of Guard and Reserve 
members, we believe more analysis is required to understand the actual 
unemployment rate, particularly for the 18-24 year old population. Let 
me assure you that we in the office of the Assistant Secretary of 
Defense for Reserve Affairs view civilian employment as an important 
piece of a Reserve Component servicemember's readiness, and see the 
current high rate of unemployment as a threat to the readiness of our 
force. I look forward to sharing with you the ways in which we are 
addressing this problem.
    Secondly, the type of transition assistance that is provided to 
these servicemembers. This is primarily provided by the Yellow Ribbon 
Reintegration Program, a Congressionally initiated program that 
connects National Guard and Reserve servicemembers and their families 
with resources throughout the deployment cycle. The types of 
information that these events give access to are health care, 
financial, and legal benefits, as well as education and training 
opportunities. Also, Yellow Ribbon post deployment training events 
provide employment services to servicemembers.
    Third, the efforts of the Employer Support of the Guard and Reserve 
(ESGR) office and our 4,800 volunteers nationwide to help educate both 
members of the Guard and Reserve and employers about the rights 
afforded to servicemembers under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA). In Fiscal Year 2011, ESGR saw 
successes such as 45,150 signed statements of support from employers 
across the country; resolving 79.8 percent of the 2,884 USERRA cases 
referred to us; and educating nearly 500,000 servicemembers regarding 
their rights and responsibilities under USERRA.
    Finally, my testimony covers the initiatives taken by the 
Department of Defense to reduce unemployment rates among the Reserve 
Components and minimize underemployment. It is important to note that 
this is a unique population, as these servicemembers are not retiring 
or separating from service. They are still continuing to serve and are 
seeking employers who are willing to facilitate their continued 
participation in our military. Military members must serve 180 
continuous days on active duty to receive ``Veteran'' status. By this 
standard, certain Reserve Component members may be statutorily 
ineligible to receive services from DOL-VETS or the VA. Our goal is to 
ensure these servicemembers still receive specialized assistance. ESGR 
and YRRP have partnered under the umbrella of the Employment Initiative 
Program addressing employment issues across the country, while working 
with the U.S. Chamber of Commerce to execute nearly 70 mega-hiring 
fairs across the country.
    In December 2011, OSD-Reserve Affairs launched ``Hero2Hired'', 
better known as H2H. H2H is a comprehensive, multi-faceted program 
targeted to support Reserve Component servicemembers and help them 
connect to and find jobs with military-friendly companies that seek 
employees with specific training and skills. Through an electronic job 
and career web platform, mobile applications and Facebook integration, 
virtual and physical career fairs, and a national marketing and 
management effort, H2H can reduce the DoD's unemployment benefits cost 
as well as the stress and financial hardships faced by unemployed 
Reserve Component servicemembers and their families.
    Together, Yellow Ribbon and ESGR are delivering meaningful services 
to assist Reserve Component servicemembers' transition into the 
civilian workforce, providing full spectrum assistance by assisting 
with the employment search via H2H, and continuing the support by 
promoting positive employer relations through USERRA education. We 
should anticipate that both ESGR and Yellow Ribbon will continue to 
play a critical role with the enhanced access to Reserve Component 
servicemembers as articulated in Title 10 USC Sec 12304. With the 
changes to the law in the last National Defense Authorization Act, we 
anticipate continued utilization of the Reserve Components, the desire 
of these Servicemen and women to participate, and the need to continue 
providing support to servicemembers, their families and their civilian 
employers.
    In closing, thank you for this opportunity to testify on behalf of 
everyone that comprises the Family and Employer Programs and Policy 
Team and most of all, ESGR's more than 4,800 volunteers located in all 
50 States, Washington, D.C., Guam, Puerto Rico and the U.S. Virgin 
Islands, and thank you for your continued support of the Reserve 
Components.

                                 <F-dash>
             Prepared Statement of Ismael ``Junior'' Ortiz
    Good morning Chairman Stutzman, Ranking Member Braley, and 
distinguished Members of the Subcommittee. Thank you for the invitation 
to testify today and for holding this important hearing on ``Lowering 
the Rate of Unemployment for the National Guard.'' I commend you all 
for your tireless efforts to honor the brave Americans who have worn 
the uniform of the United States of America and have risked so much to 
keep America safe.
    We ask so much of these men and women: to put their careers on 
hold, leave their loved ones behind and embark on dangerous missions 
across the world. Yet the men and women that serve in America's active, 
National Guard, and Reserve forces do so willingly and without 
hesitation. They selflessly serve their country and are a shining 
example of America at its best as President Obama remarked in his 
recent State of the Union address. At the Department of Labor (DOL or 
Department), we strive to honor their contributions every day. We do 
this by putting the full weight of our department behind programs to 
ensure rewarding careers are waiting for them when they come home. We 
must serve our returning Servicemembers and Veterans as well as they 
have served us.
    That's especially true now that the Iraq war has officially ended 
and we are winding down our presence in Afghanistan. Our returning 
Servicemembers deserve a hero's welcome and a chance to utilize their 
unique skills to help rebuild our economy. Yet they often face a 
difficult transition back to civilian life. This is particularly true 
for the men and women of our National Guard and Reserve forces who are 
often unintentionally overlooked or underserved. According to the 
Bureau of Labor Statistics (BLS), in 2010, recent Veterans who served 
during the post-9/11 era had an unemployment rate of 11.5 percent, 
compared to a 9.4 percent rate among civilian non-veterans. 
Unemployment rates were particularly high among recent Veterans who 
have served or continue to serve our Nation in the National Guard and 
Reserve forces. These Veterans had an unemployment rate of 14 percent 
in July 2010, almost five points above the civilian unemployment rate.
    Our Nation has a sacred obligation to help these men and women 
overcome unemployment and get the good jobs and benefits that they've 
earned. We at DOL believe that this obligation includes providing them 
with the opportunity to utilize their unique skills to help rebuild our 
Nation's economy. Through the Veterans' Employment and Training Service 
(VETS), we provide Veterans and transitioning Servicemembers with the 
resources and services to succeed in the workforce by maximizing their 
employment opportunities, protecting their employment rights, and 
meeting labor market demands with qualified Veterans.
    I would like to begin by discussing the work we are doing to 
decrease the unemployment rate for our Veterans, National Guard and 
Reservists, focusing on the issues you asked me to address, including 
the Department's efforts to decrease the rate of unemployment, the need 
for additional employment services to areas of high unemployment among 
members of the Active and Reserve Components, and DOL's efforts to 
educate about and enforce the provisions of the Uniformed Services 
Employment and Reemployment Rights Act (USERRA).

Jobs for Veterans State Grants Program

    The U.S. military services transition approximately 160,000 active 
duty Servicemembers and demobilize approximately 95,000 Reserve and 
National Guard Servicemembers annually. Transition assistance and 
employment services for Veterans are essential to help our servicemen 
and women reintegrate into the civilian labor force.
    One of the Department's programs aimed at meeting this need and 
decreasing the rate of unemployment among Veterans is the Jobs for 
Veterans State Grants (JVSG) program. Through JVSG, VETS provides funds 
for two types of Veterans' employment specialist positions in the 
states: (1) the Disabled Veterans' Outreach Program (DVOP) and (2) the 
Local Veterans' Employment Representatives (LVER) program. DVOP 
specialists provide outreach services and intensive employment 
assistance to meet the employment needs of eligible Veterans. LVER 
staff conducts outreach to employers and engages in advocacy efforts 
with hiring executives to increase employment opportunities for 
Veterans, encourages the hiring of disabled Veterans, and generally 
assists Veterans to gain and retain employment. These services are 
provided primarily through nearly 3,000 One-Stop Career Centers across 
the country and benefit both the active and Reserve Components. Last 
year, the JVSG provided services to nearly 589,000 Veterans, and 
201,000 Veterans found jobs.

Transition Assistance Program (TAP)

    Another important VETS program is the Transition Assistance Program 
(TAP), which provides Employment Workshops and direct services for 
separating Servicemembers, including members of the National Guard and 
Reserve. TAP is an interagency program delivered via a partnership 
involving the Departments of Defense, Labor, Veterans Affairs, and 
Homeland Security. As part of this effort, VETS provides an Employment 
Workshop, which is a comprehensive two and a half day program during 
which participants are provided relevant skills and information, such 
as job search techniques, career decision-making processes, and current 
labor market conditions.
    As you know, VETS is currently in the process of redesigning and 
transforming the Employment Workshop, the first significant redesign of 
the program in 19 years. The redesign, which is based on established 
best practices in career transition, will create experiential, 
effective, and enduring solutions for a successful transition from 
military to civilian life and employment. Among other things, the 
redesign will provide career readiness assessments to help returning 
Servicemembers translate their military experience into civilian job 
qualifications. Currently, VETS uses a mix of contractors, VETS Federal 
staff, Disabled Veterans Outreach Program (DVOP) specialists, and Local 
Veterans Employment Representatives (LVERs) as TAP facilitators. In the 
future, however, VETS will transition to all skilled contract 
facilitators, with DVOPs continuing their involvement in the workshops 
as subject matter advisors. In FY 2011, over 144,000 transitioning 
Servicemembers and spouses attended a TAP Employment Workshop at one of 
272 locations world-wide. Of that number of attendees, 2,249 were Guard 
and Reservists.
    With 95,000 Guard and Reserve members demobilizing each year, VETS 
has taken steps to provide them with transition assistance and 
employment services in the event they are not located near any of the 
272 locations where TAP is normally provided. For example, we have 
organized the regular two and half day Employment Workshop into 
separate modules, including the program's three core components 
(overview of USERRA rights, current labor market information, and 
explaining the roles of DVOPs and LVERs at One-Stop Career Centers), 
along with other basic courses such as resume writing and interview 
techniques. We often provide the three core components, and any 
additional modules, to Guard and Reserve units at the unit commander's 
request. Further, we have committed to provide any requested TAP 
modules at the 30, 60, and 90-day Yellow Ribbon Reintegration programs, 
a Department of Defense effort to promote the well-being of National 
Guard and Reserve members, their families and communities, by 
connecting them with resources throughout the deployment cycle.
    DOL is also working in partnership with the Department of Defense 
and the Department of Veterans' Affairs on the ``Guard Apprentice 
Program Initiative,'' which continues to build relationships with 
employers and colleges to facilitate civilian apprenticeship and 
employment opportunities for National Guard and other Reserve Component 
members.
    Our State Directors for Veterans' Employment and Training (DVETS) 
are part of the planning process when units in their area demobilize. 
They work with the stay-behind element of the unit and coordinate 
requested support. Let me share with you a few examples:

    <bullet>  VETS and the Oregon Employment Department (OED) are 
partnering with the Oregon National Guard Yellow Ribbon Reintegration 
and Joint Transition Assistance Program (JTAP) staff to jointly address 
the employment needs of returning National Guard and Reservists. During 
the Oregon LVER/DVOP training conference in October 2011, OED hosted a 
joint training session to determine how we will partner together 
statewide to ensure Veterans are aware of the employment services 
available to them. This past year, the Oregon Army National Guard (3-
116 Cav) deployed to Iraq in support of Operation New Dawn. While in-
country, the military unit commander stressed the importance of 
addressing Servicemembers' future employment needs and took the 
initiative to conduct employment status surveys of all deployed 
personnel. This employment information was shared with Employer Support 
of the Guard and Reserve (ESGR), Yellow Ribbon JTAP and Oregon 
Employment Department Management, including LVERs, and used to 
coordinate ``Skype employment interviews'' with local employers, such 
as Boise Cascade. Upon return from deployment and at the 60 day 
interval, the OED provided aggregate data to the JTAP on the number of 
Guard and Reservists who found employment to the JTAP. Initial 
estimates found that of the original 113 soldiers who registered for 
employment in late May while deployed in Iraq, 51 have found jobs since 
their release from military duty. This does not account for the 26 
soldiers who registered but do not live in the state.
    <bullet>  Congressman Walz mentioned the 34th Infantry Division 
``Red Bull'' Brigade Combat Team (BCT) Project in Minnesota during our 
last hearing in December. This project intends to hire 5 Veteran staff 
(2 LVER & 3 DVOP) to work specifically with this BCT. One LVER has 
already been hired and the remaining staff will be hired in April with 
the anticipated return of the BCT being May of 2012. In partnership 
with ESGR, pre-deployment interviews were held with each Servicemember 
to identify employment and training needs. Five hundred and fifty 
Servicemembers are either unemployed or under employed. A referral 
process is being developed to get these Servicemembers the appropriate 
employment assistance immediately upon their return.
    <bullet>  In June 2010, Tennessee's DOL (TNDOL) started working 
with the Tennessee ESGR Chair to help the high number of unemployed 
Veterans returning from deployments. It was discovered that most of the 
unemployed Servicemembers were just out of high school or just 
graduating college and returning from their first deployment and had 
never held a traditional job. As a result, a committee of individuals 
was formed from different agencies, including the VA, USDOL, TNDOL, 
ESGR, Yellow Ribbon, TN National Guard Command Staff and a few others. 
The Committee met several times and decided to try a TAP employment 
workshop. The first workshop was 2 days and was facilitated by contract 
facilitators. The workshop was open first and foremost to unemployed 
soldiers and their spouses and Servicemembers were put on orders to 
help with the cost of travel. After holding several workshops and a 
committee meeting, the Committee decided to go to the traditional 2\1/
2\ day employment workshop but also added a job fair at the end of each 
TAP workshop. Only employers with current openings who were looking to 
fill them were invited to the job fairs. To date, the Tennessee ESGR 
has hosted 18 workshops for 415 participants. Today that committee has 
grown to include other reserve units, and Commanders are calling asking 
for weekend drill TAP workshops for their unemployed soldiers.

    Similar efforts are happening across the country. VETS State 
Directors (DVETS) work closely with the JVSG staff and partner with 
several other organizations to coordinate as many services to the 
Veterans and Reserve components as possible in their state. In 
Kentucky, for example, LVERs and DVOPs are fully integrated into Yellow 
Ribbon demobilization events across the Commonwealth, providing local 
labor market information and general One-Stop Career Center employment 
services. There is also direct coordination between the transition 
representatives at Camp Atterbury, Indiana--the local National Guard 
and Reserve demobilization point--where listings of individuals 
transitioning out and to Kentucky are provided to the Veterans Program 
Coordinator, who coordinates contact with a local LVER or DVOP. Through 
coordination with the Kentucky Guard command, LVERs and DVOPs have 
contacted local Guard units in their respective areas to offer direct 
employment assistance, either during normal Career Center business 
hours or, if necessary and more beneficial for all involved, during 
weekend drills.
    To compliment our core programs and services, we are involved with 
a few other initiatives that provide additional employment resources in 
an effort to decrease the rate of unemployment of Veterans of the 
active and Reserve Components.

Veterans Jobs Bank

    On November 7, 2011, President Obama announced a new Veterans Job 
Bank at www.nrd.gov, the National Resource Directory Web site. This job 
bank, a partnership among the Departments of Defense, Labor, and 
Veterans Affairs, is an easy-to-use tool that enables Veterans to find 
job postings from companies that are looking to hire them. It already 
searches nearly one million job postings and is growing. In a few easy 
steps, companies can make sure the job postings on their own Web sites 
are part of this Veterans Job Bank.

The Gold Card

    Post-9/11 Veterans can now go to the DOL Web site and download a 
Gold Card, which provides them 6 months of intensive job counseling and 
personalized case management services at one of the Labor Department's 
3,000 One-Stop Career Center locations across the country. These 
services include career assessments, direct referrals to open jobs, 
interview coaching, resume assistance and training referrals.

My Next Move for Veterans

    The Labor Department also launched a new Web site called My Next 
Move for Veterans. It can be accessed at www.dol.gov/vets. This Web 
site allows our Veterans to enter their military occupation code and 
discover civilian jobs where their skills translate. They can browse 
more than 900 career options. The benefit of these online tools is they 
can be accessed from just about anywhere.

Employer Partnerships

    We are also working with the private sector to increase the 
employment of our Veterans and returning Servicemembers. The first of 
these initiatives is our work with the U.S. Chamber of Commerce. The 
Chamber, in partnership with VETS and ESGR, will have conducted 100 
hiring fairs exclusively for Veterans, transitioning Servicemembers and 
their spouses between March 2011 and March 2012. Through this 
partnership, the Chamber and its affiliates secure the participation of 
employers, while the VETS team and ESGR focus on participation by 
Veterans, transitioning Servicemembers, and their spouses. The Chamber 
hiring fairs have hosted more than 84,000 Veterans and military spouses 
and given them the opportunity to meet with over 4,300 different 
employers. As a result, the effort has helped more than 7,300 Veterans 
and military spouses and 60 wounded warriors find employment.
    Additionally, in an initiative sponsored by Microsoft, DOL has 
facilitated Microsoft's contact with communities across the Seattle, 
Washington; San Diego, California; Houston, Texas; Northern Virginia; 
and Jacksonville, Florida regions, to provide Veterans with vouchers 
for no-cost training that can lead to important industry recognized 
credentials. Each area's Workforce Investment Board will receive 1,000 
vouchers per year for 2 years, totaling 10,000 vouchers, and will 
distribute them through the One Stop Career Centers.

Uniformed Services Employment and Reemployment Rights Act (USERRA)

    The last piece I want to discuss is DOL's efforts to educate about 
and enforce the provisions of the Uniformed Services Employment and 
Reemployment Rights Act (USERRA). VETS' enforcement programs 
investigate complaints filed by Veterans and other protected 
individuals under USERRA, assess complaints alleging violation of 
statutes requiring Veterans' preference in Federal hiring, and 
implement and collect information regarding Veteran employment by 
Federal contractors.
    In addition to enforcing these rights, we do what we can to educate 
employers, as well as Veterans, Guard, and Reservists, on USERRA. VETS 
has long recognized the value of outreach and education as a means for 
avoiding USERRA disputes. Through the course of our history 
administering the statute, we have found that the vast majority of 
employers seek to comply with the law and remain highly supportive of 
our servicemen and women despite challenges imposed through multiple 
and repeated deployments. To that end, VETS has engaged in an 
aggressive public outreach campaign, aimed not only at our servicemen 
and women but to employers, attorneys, and human resources 
professionals as well.
    In that regard, VETS' outreach to the employer community begins 
with individual responses to technical assistance requests, which has 
proven highly effective in resolving disputes before formal complaints 
are filed. VETS staff has also sought out and given USERRA briefings to 
a large number of employer groups, professional human resources 
associations, State bar associations, the American Bar Association, 
Chambers of Commerce, law schools, and a host of other groups. In 
addition, VETS has developed online educational tools such as: an 
interactive USERRA elaws Advisor for both employers and employees that 
detail the roles and responsibilities for each under the law; 
Frequently Asked Questions; and USERRA 101 and 102 courses, which are 
designed to address the more commonly encountered situations and 
challenges facing employers. Perhaps most importantly, when conducting 
briefings and providing technical assistance in either a group or 
individual setting, VETS staff always provide direct contact 
information to reassure the public that help is just an e-mail or 
telephone call away.
    For example, in the Chairman's state of Indiana, VETS provides 
workshops on USERRA for Servicemembers stationed at the Camp Atterbury 
Joint Maneuver Training Center, including members of the Judge Advocate 
General's Office. And similarly in Iowa, the Ranking Member's home 
state, VETS and the Iowa Workforce Development (IWD) have undertaken 
numerous initiatives to assist recently returning Veterans and 
employers. The IWD Veterans Program partners with ESGR at their Lunch 
and Learn events for employers across the state. At these events, VETS 
and ESGR personnel teach employers about USERRA and how to deal with 
Veteran employment issues. In addition, IWD Veterans Program personnel 
train the employers on why they should consider hiring Veterans, how to 
market their jobs to Veterans, how to interpret Veteran resumes and 
what to expect from Veteran job applicants.
    VETS is fully committed to fulfilling our mission. And, as I hope 
my examples, we are doing so through the combined efforts of all of the 
witnesses today as well as others. We pledge to you and to them to 
continue to work with them to improve the services and programs we 
provide.
    Mr. Chairman, Ranking Member Braley, Members of the Committee, this 
concludes my statement. Thank you again for the opportunity to testify 
today. I would be pleased to answer any questions you may have.
                                 <F-dash>
                   MATERIAL SUBMITTED FOR THE RECORD
            Statement of Reserve Officers Association of the
             United States and Reserve Enlisted Association
    On behalf of our members, the Reserve Officers and the Reserve 
Enlisted Associations thank the Committee for the opportunity to submit 
testimony on veteran and National Guard employment issues. ROA and REA 
applaud the ongoing efforts by Congress to address employment problems 
faced by so many veterans and servicemembers.
    As contingency operations continue with ongoing mobilizations and 
deployments, many of these outstanding citizen soldiers, sailors, 
airmen, Marines, and Coast Guardsmen have put their civilian careers on 
hold while they serve their country in harm's way. They share the same 
risks as their counterparts in the Active Components. Since 9/11, more 
than 825,000 Reservists and Guardsmen have been mobilized. More than 
275,000 have been mobilized two or more times. The United States is 
creating a new generation of combat veterans that come from its Reserve 
Components (RC). It is important, therefore, that we don't squander 
this valuable resource of experience, nor ignore the benefits that they 
are entitled to because of their selfless service to their country.
    ROA would like to thank the Committee and staff for making 
improvements to the Post-9/11 GI Bill, enhancing benefits for 
caregivers, and much more.

EXECUTIVE SUMMARY

Education:

    <bullet>  Include Title 14 eligibility for the post-9/11 GI Bill.
    <bullet>  Exempt GI Bill earned benefits from being considered 
income in need-based aid calculations.
    <bullet>  Develop a standard nationwide payment system for private 
schools.
    <bullet>  Re-examine qualification basis for Yellow Ribbon Program, 
rather than first-come first-served.

        <bullet>  Enact Uniformed Services Employment and Reemployment 
        Rights Act (USERRA) and Servicemembers Civil Relief Act (SCRA) 
        protections for mobilized Guard and Reserve students, granting 
        academic leaves of absence, protecting academic standing, and 
        guaranteeing refunds.

    <bullet>  Increase Montgomery GI Bill-Selected Reserve (MGIB-SR) to 
47 percent of MGIB-Active.

    <bullet>  Include 4-year reenlistment contracts to qualify for 
MGIB-SR.

Employer Support:

    <bullet>  Continue to enact tax credits for health care and 
differential pay expenses for deployed Reserve Component employees.
    <bullet>  Provide tax credits to offset costs for temporary 
replacements of deployed Reserve Component employees.
    <bullet>  Support tax credits to employers who hire servicemembers 
who served in the Global War on Terrorism.

Employee Support:

    <bullet>  Permit delays or exemptions while mobilized of regularly 
scheduled mandatory continuing education and licensing/certification/
promotion exams.
    <bullet>  Continue to support a law center dedicated to USERRA/SCRA 
problems of deployed Active and Reserve servicemembers.

Veterans Affairs:

    <bullet>  Calculate years of service, rather than days of active 
duty, for disability retired pay under section 12732 of U.S.Code Title 
10 for Reserve Component members wounded or injured in combat.
    <bullet>  Extend veterans preference to those Reserve Component 
members who have completed 20 years in good standing, or
    <bullet>  Permit any member who has served under honorable 
conditions and has received a DD-214 to qualify for veteran status.
    <bullet>  Make permanent Reserve Component Department of Veterans 
Affairs (VA) Home Loan Guarantees expiring in October 2012.
    <bullet>  Eliminate the 3/4 percent fee differential between Active 
Component and Reserve Component programs on VA home loans.
    <bullet>  Support burial eligibility for deceased gray-area 
retirees at Arlington National Cemetery.
    <bullet>  Continue to seek timely and comprehensive implementation 
of concurrent receipt for disabled receiving retired pay and VA 
disability compensation.

EMPLOYMENT

    ROA and REA are grateful to Congress for the passage of the VOW to 
Hire Heros Act.

Employment Protections

    Veterans and servicemembers are provided protections through the 
National Committee for Employer Support of the Guard and Reserve 
(ESGR), the Uniformed Services Employment and Reemployment Rights Act 
(USERRA), and the Servicemembers' Civil Relief Act (SCRA).
    Notwithstanding the protections afforded veterans and 
servicemembers and antidiscrimination laws, it is not unusual for 
members to lose their jobs due to time spent away while deployed. 
Sometimes this is because employers go out of business, but more often, 
Reservists and Guardsmen are laid off because it costs employers money, 
time, and effort to reintroduce the employee to the company.
    The most recent national example is in the case of Straub vs. 
Proctor Hospital in which Army Reservist Vincent Straub was fired by 
Proctor Hospital of Peoria due to his service requirements. The Supreme 
Court upheld Straub's rights under USERRA.

Employer Incentives

    Partnerships: The Army Reserve under Lieutenant General Jack Stultz 
initiated the Employer Partnership Program with civilian employers that 
is an initiative designed to formalize the relationship between the 
Reserve and the private sector, sharing common goals of strengthening 
the community, supporting RC servicemembers and families, and 
maintaining a strong economy. Over 1,000 companies are currently in 
various preliminary stages of implementing partnership programs. This 
sets a model for businesses to hire veterans. The program has its own 
Web site http://www.employerpartnership.org/and provides job search, a 
resume builder, professional staff support, a list of employer partners 
and career resources. This program has now been broadened to the U.S. 
Army.
    Periodic and Predictable: Employers need increased notification 
time in order to better support their personnel. The military services 
and components should provide greater notice of deployments to RC 
members, so that they, as well as their families and their employers, 
can better prepare. Collaboration between industry and the military 
needs to occur as the military considers deployment cycle models so 
that the Nation's defense needs are met but its industrial base is not 
compromised.
    Employer care plans should be developed that will assist with 
mitigation strategies for dealing with the civilian workload during the 
absence of the servicemember employee and lay out how the employer and 
employee would remain in contact throughout the deployment.
    CNGR: The Commission on the National Guard and Reserve suggested 
key recommendations including expansion of the Employer Support of the 
Guard and Reserve (ESGR) committee to be able to work new employment as 
well as reemployment opportunities, the creation of an employer 
advisory council, and regular surveys to determine employer interests 
and concerns over reemployment of Guard and Reserve members. 
Unfortunately, the budget recommendation is to reduce ESGR's budget.
    TRICARE as an employee/employer benefit: An employer incentive is 
when an employee brings importable health care such as TRICARE, 
reducing the costs for the employer. Guard and Reserve members as well 
as military retirees should be permitted to tout the availability of 
TRICARE as an employee asset, and permit employers to provide 
alternative benefits in lieu of health care.
    Another option is to fully or partially offset employer costs for 
health care payments for Guard and Reserve members who are employed, 
especially when companies continue civilian health insurance for 
servicemembers and/or their families during a deployment. DoD should 
provide employers--especially small businesses--with incentives such as 
cash stipends to help offset the cost of health care for Reservists up 
to the amount DoD is paying for TRICARE, with the understanding that 
the stipend is tied to reemployment guarantees upon the serving 
member's return.
    Other incentives: Incentives of various types would serve to 
mitigate burdens and encourage business to both hire and retain 
Reservists and veterans. A variety of tax credits could be enacted 
providing such credit at the beginning of a period of mobilization or 
perhaps even a direct subsidy for costs related to a mobilization such 
as the hiring and training of new employees. Employers felt strongly 
that, especially for small businesses, incentives that arrive at the 
end of the tax year do not mitigate the costs incurred during the 
deployment period. Also cross-licensing/credentialing would ease the 
burden of having to acquire new licenses/credentials in the private 
sector after having gained them during their military service, and vice 
versa.
    ROA and REA support the concept of H.R. 802 introduced by Ranking 
Member Bob Filner because it would recognize employers of veterans, but 
strongly believe that it should be amended to include employers of 
Guardsmen and Reservists.
    While not under this committee's jurisdiction we hope that the 
House Veterans' Affairs Committee can support specific tax incentives 
to hire returning veterans and Guard and Reserve members.
    ROA and REA support H.R. 865 Veterans Employment Transition Act of 
2011, introduced by Rep. Tim Walz and referred to the HASC, that would 
extend work opportunity credit to certain recently discharged veterans.
    ROA and REA further recommend the following:
    ROA and REA encourage a rapid implementation of certifications or a 
form that would inform employers of skills potential veteran and 
servicemember employees gained through their military service.
    ROA and REA supports initiatives to provide small business owners 
with protections for their businesses to be sustained while on 
deployment, for example a potential program in which a trained 
substitute is made available to run the business while the member is 
out country. Further SCRA protection on equipment leases should be 
included in the law.

EDUCATION

Post-9/11 GI Bill

ROA and REA support Chairman Jeff Miller's bill H.R. 1383 The Restoring 
        the GI Bill Fairness Act of 2011 which would grandfather in 
        current students who applied for benefits of the Post-9/11 GI 
        Bill under a different set of rules.
    Education improves a veteran's chance for employment, and many 
returning combat veterans seek a change in their life paths. There is 
still room for more improvement in the Post-9/11 GI Bill that in the 
long run can make the program more effective and increase utilization. 
For example, while Title 32 AGR was included for eligibility, Title 14 
Coast Guard Reserve was left out.
    Other issues that student veterans have raised to ROA and that we 
recommend include the following:

    <bullet>  Require timely application and submission of 
documentation by the institution to the Department of Veterans' Affairs 
(VA) and vice versa.
    <bullet>  Establish dedicated and well-trained officers for student 
veterans to speak with via the call center.
    <bullet>  Better define the Yellow Ribbon Program to determine what 
`first come, first serve' means in context of institutions (such as 
registration time, enrollment, and official enrollment).
    <bullet>  Allow institutions to give more funds to students with 
stronger merit and need-base under the Yellow Ribbon Program.
    <bullet>  Align the VA's work-study program for students to work as 
guidance officers at their institutions to aid other student veterans, 
to be matched up with institution's academic calendar.

    <bullet>  Safeguard and implement a long term plan for sustaining 
the Post-9/11 GI Bill.
    <bullet>  Ensure transferability benefits are protected.
    <bullet>  Guarantee that any future changes to the program that 
could have negative effects on benefits will grandfather in current 
beneficiaries.
    <bullet>  Pass legislation to disallow institutions including 
benefits in need-based aid formulations.
    <bullet>  Remove the requirement to have a parental signature.
    <bullet>  Establish parity between FAFSA disclosure exclusion over 
veterans' educational and non-educational benefits to CSS and all 
institutions of higher learning.

    Institutions of higher learning across the Nation that provide 
need-based aid often require students to file a Free Application for 
Federal Student Aid (FAFSA) form and a College Scholarship Service/
Financial Aid Profile (CSS) form administered by the College Board.
    If an institution abides by the Federal methodology of determining 
aid levels it uses the FAFSA form and guidelines, but an institution 
may use an institution methodology (IM) formulated by CSS. By law under 
the Higher Education Opportunity Act of 1965 (HEA), FAFSA's current 
need analysis formula, while including some sources of untaxed income, 
excludes veteran's educational benefits and welfare benefits.
    On the other hand, CSS require military servicemembers to disclose 
their earned educational benefits for the formulation of their need-
based aid levels. That disclosure of veterans' educational benefits on 
the CSS is then often weighed by those institutions that use an IM in 
the same manner of other traditional untaxed income items such as child 
support or a contribution from a relative, in the formulation of their 
aid package.
    Disclosing these earned-benefits on the CSS profile serves to bring 
down servicemembers' financial need level, thus increasing the cost out 
of pocket, by improperly treating earned benefits as equivalent in 
nature and function as untaxed income items. Since CSS is not 
restricted from asking for disclosure of the benefits, institutions use 
the CSS to add these earned benefits into the aid formulation, shirking 
FAFSA's and the HEA's intentions.
    ROA and REA urge Congress to bar institutions of higher learning 
from considering veterans' educational benefits in need-based aid 
calculations and apply the Higher Education Opportunity Act to all 
financial aid practices of institutions of higher learning.
    While many may gain advantages under the changes in law, others are 
actually negatively affected. For example ROA has received concerning 
calls and emails from members that feel forsaken as such members signed 
commitments based on the benefits which they now feel are reduced.
    One of the most significant problems that link all issues 
pertaining to the Post-9/11 GI Bill is the lack of effectively trained 
customer service representatives. One of the many examples came from 
two of our members that are married, both serving in a Reserve 
Component. They wanted to transfer their benefits to their children, 
but were told that only one parent can register the children in the 
DEERS system and therefore only one of the parents could transfer the 
benefits.
    After going through a couple back channels ROA found out that the 
couple needed to go to a DEERS office and request an `administrative' 
account for the purposes of transferring benefits.
    There are many stories similar to this one which cause unnecessary 
stress on the families, some of whom give in to the system and give up 
the benefit because either they are given incorrect and/or incomplete 
information or the hassles involved are not deemed worthwhile.
    It is absolutely necessary that our servicemembers, veterans and 
families have the ability to access accurate and timely information.
    ROA and REA urge Congress to enforce the VA to properly and 
effectively train their personnel.

Montgomery GI Bill

    To assist in recruiting efforts for the Marine Corps Reserve and 
the other uniformed services, ROA and REA urge Congress to reduce the 
obligation period to qualify for Montgomery ``GI'' Bill-Selected 
Reserve (MGIB-SR) (Section 1606) from 6 years in the Selected Reserve 
to 4 years in the Selected Reserve plus 4 years in the Individual Ready 
Reserve, thereby remaining a mobilization asset for 8 years.
    Because of funding constraints, no Reserve Component member will be 
guaranteed a full career without some period in a non-pay status. BRAC 
realignments are also restructuring the RC force and reducing available 
paid billets. Whether attached to a volunteer unit or as an individual 
mobilization augmentee, this status represents periods of drilling 
without pay. MGIB-SR eligibility should extend for 10 years beyond 
separation or transfer from a paid billet.

CONCLUSION

    ROA and REA appreciate the opportunity to submit this statement, 
and we reiterate our profound gratitude for the progress achieved by 
this committee such as providing a GI Bill for the 21st Century and 
advanced funding for the VA.
    ROA and REA look forward to working with the House Veterans' 
Affairs Committee, where we can present solutions to these and other 
issues, and offer our support, and hope in the future of an opportunity 
to discuss these issues in person.
    ROA and REA encourage this Committee to utilize the Servicemembers 
Law Center and the Defense Education Forum and reports, both valuable 
assets, and to share it with your constituents and other Congressional 
members.

                                 <all>

</pre></body></html>
